                                                    SECitE'f


DEPARTMENT OF DEFEN SE OFFI 'E OF INSPECTOR GENE RAL


                   l'ts wn : "One - pro- fc'-'\ tt>ll d( l tltll s t n•J t '~Jtl1enl11Lt Jlllt' tlllt'~Jri i \f,      I   -


                   e fl tCH' I1 C\j,   illld t!)) e dt Vt ' ll t'SS o f 'Dt~p tl r /111 l' ll [ Of   'fl(' / t' /1 -'!'
                   p rVtJr ti /1/ S l11ll{ op crutt on s. "
                  ••     L                    -




General Information

For·ward questions or comments concerning this ~lssess rrumt report and other
activities conducted by the Office of Stlccial Plans & Operations to:

                           Office ofthe Assistant Inspector General
                                for Specia l Plans & Operation::;
                       Department of Defense Office of In pcctor General
                                    400 Am1y avy Dri ve
                                  Arlington VA 22202-4 704
                                                         or
                                          E-mail : spo(t/Jdodig.mil

An overview of the Ofli ce f Special Plans & Operat ions mission and organi z;.nion and a
list of past evaluati on and future topi cs nrc avai lable at hup://wwv.. .dodii!.m il . po

(U) Additional Information and Copies
To obtain additional copies of this report , please contac t th Spec ial Plans & pcrations
Secondary Reports Distribution at (703) (104 - E<33 (D N (164 -8 833 ) or lax ( 703) 604-
9789 .




                                          To report fra ud, waste, mismanagement, and abuse of authorlt)l.
                                          send wrinffi om plain~ to: ~se Hotline. The Pentagon. Wa5hington. DC 20301·1900
                                          Phone: 800 4249096 e-rn<¥1: holline-:·400' W wwwdocJ,g..m.llho!ltne
                                                            INS E.,TOR GENERAL
                                                           DE RT AFNT OF DEFENSE
                                                            -lO U ARM Y N AVY ORIVE
                                                      11 nUNGTON VIRG INI A 2220::' -·1 7 0 ~




 \lE:\10RA Dl lt\1 FOR Dl.TRIB t l rJU :


 Sill ~.1 H T:      !\s.'~ssm ~:nt    111' UoD-rvlanuged Programs in Supp11rt ,,['the lion:mmc111 ul' !Jn.kist:m
                     RqJ m          '· SPI J-:200lJ.IJO.t tPn~kct :--Ju. n_uoS -Dfl 101 1-0 18-LOOUJ (l ' l
(II) We arc prnvidi11g thi s SI:CR f·: I' finnI report li11' ynur in l(,nn<llhm and us,•. We rcrlimned th is
tL<sc~sm..:nt in r~:sp, , ns.: tu r c4U1:Sb l'r~tm th~..· llnJ.:r S.:cr~.:turi..:~ of Dd4.:t1Sc ( PL'Ii~:~ and
  t'11lptroller'Chkf Finan~·in l t >tiic rl: 'hairmun. Join t L'hicis 11 f StJff: Commander. I '·"· L' ·ntr.:~l
Cutnlllutll.i : and t it ~: 1· . .·. , lllha. ~J,,r 10 Pal-. i.-ta ll.

tl l) ;\ f'l,·r r.:cci\ in g. mun:l•' ' 111 L'nl CO il1111l'flb Ill this report ~111J in OUr !i nnJ rCptll'l rc\ il'\\         prtll:L'S'>.
\\<.'  U\ ..: maJ~: the fc lhm ing <.:hange:>, which ar.· reOe~o·ted in thi. fL'f\{1!1:


         •   Rc\ iscJ Jruli Rct:ontmctH..latiun I\. I. Wl· t\.•q ucst t:~>mmcnt s onth i;. rc \ ision .

         •   Rc\·iscd Jratl     R~:..:nmm.:nchltH        ns l.l.h. 1.2. anJ J. _.h. No u dt tionu l 1.:1 mmcnt ur dc tl on                i:-o
             tH.·c.:ssur) .

<I ) In rc!-.ponJing lo 11ur r •quc;;t ti1r comm~:nt. your etlllllllcnt.; ,.hnuld :-"llltc \\hc<h.:r ~Ill ugre nr
disal!rt.:c with the ~~h~c n•u t i tms and rc..:umm nJaliPn. lf\nu m.!.n: · \\ith nur ' ''\' ISIC"J
rct:ommcnJution. Jcscrihc \ hat <Jction~ ynu hun: taken ;,r plu~ 111 tilf, c 1, u~;wntrl ish tltc
rccnmmcndcui nat J include the c mplo:tiNi date of} our th:tinns . If} llll di~a!_.!re<.' ' ith the re\ i:-ed
rec< nmll'ndiltinn. p l cu~.: !,!i \ c . pcei lil· f(::U nn " h ~ ) 'm Ji .•lgtc.: unJ prtlpt1$t:> altt.'rnut ivc n ·titl l1 tl
that i. upprorrinll:.

( l i) If 1 1 · ·i blc. ~ ·m.! yt)llr ·ommcnts tl \' ·r tlw Sl · CRI· I ln k•mt>t l'n llOL:ol R.lllltcr Nl'l\\'ork
  ~II?RNFTt in de ..·troni · l'unmll (i\Joht: .\cmhallil.: onh) 1<1                                    a 't.!Lld i~5 rnil.m il.
Copks tll' your comn11:nb must hen e lhl.' a~.:rual bign<~tur~.'~. f the authorit:ing ol'licial f'or ~ 'Ur
tlrg an iltttion. \\ c nrc unahlt! to accept the 1 Signed r symh11l in ph1~:~ tlfthc uclUul siplillllrc. \\' c
should rt:cci\t: you          t:o11111\t:l11'\   h. · .tun~ IO,   ~ tH1 1 1 .


(1 I I· We     appnx:iut ~:   thc court ·sil..'s cxkndcd ht the S"tatr. l'lca:--1..' dircd              4u~·st iom,  to
DoDIG (b)(6)
                                                 · t (703} W4B       nr a1                                       to dnJig.sm i l.mi I. I!'
,Yilll   Jcsi rc. \\C   \\ill rr•t\ . h: u ii1m1Ul hriding lltl the rc.,UIL-:.




                                                                     llHllllJs I . timbl.:
                                                                     Prinl'ipal Dcp ~~~



                                I   n.:las~i lied    whcn   -;.:par.n~·J        from .:las. i iicJ   .:ndnsm~.· ..




                                                             S~CH~T
                                           SECRET




Distribution :

Sceretary of Del"ensc
Deputy Secretary of Defense
 hainnan, Joinl Chiefs of Staff
Under Secretary of Defense tor Policy
Under Secretary of Defense (Comptroller)/Chicf Finnncinl Officer
Commander, U.S . Cenh·al Command
United States Ambassador to Pakistan
Office of Defense Representative Pakistan




                                          S~CR-ET
                                                             SECIH:'F




                                  Executive Summary (U)
                                  Assessment of DoD-Managed Programs in
                                  Support of the Government of Pakistan (U)
                                  Report No. SP0-2009-004 (Project No. 02008-DOOOIG-0184.000)




    Who Should Read This Report? (U)
    ( U) Personnel within the Office of the Secretaty of Defense, the Joint Staff, the U.S .
    CetJtra ll om mand and its su bordinat e command in Pakistan, the Offi ce of the Secretary
    of State, the U.S. Amba ssador to Pak istan and those orga nizations and activities
    responsibl e for the management, oversight, nnd acL:otmtabilily or th e U.S. programs in
    Pakista,n should read this report.

    Bacl<ground (U)
    ( U) Today, Paki stan is a key ally in the Global War on TctTnr and the third largest
    recipient of United States military and economic support. The Uni ted States relies upon
    the Pakistan military to patrol Pakistan's westem border and to help achieve the U.S . goal
    of denying safe haven to the terrorists and extremists. In th long term, the United Stntcs
    supports Pakistan's efforts io move along a stable, secure, ami demoL:ratic path .

    ( U) Paki stan has taken important steps towards democracy in the past year. However,
    the new govcmmcnt also faces severe budget, energy, and economit.: crises. DoD senior
    officials have stated that they are committed to working with the new civili an leadership
    ami helping the Pakistanis ach ieve sta bility .1
           CENTCOM (b)(1), 1 4(a), (g), JS (b)(1)

CENTCOM (b)(1), 1 4(a), (g). JS (b)(1)




    1I ) Depllly Assistant Secretary of Defense for Central Asi~1, Testimony befo r~ the llous • 0\-ersight ami
    Ciovcmmenl Reform Subcomm illcc. June 24, 2008.
    1
      ( U) Na tional Intelli gence Es timat e 2U07-02D. "ThL: Terrorist Threat to the U.S. Hnrndnnd.'' p.6. J11ly
    2007.
           CENTCOM (b)(1), 1 4(a). (g), JS (b)(1)
c:;_EI>JT~9M   (b)(1), 1 4(a)._(g), JS (b)(1)                                                       _           _
- - - - - - - - -                                   - - - - - - - - - -   - - - - - - - - - - - - -
-    -                                                           -




                                                              - I -
                                                            gt;CRKF
                                                      SECI!t+
CENTCOM (b)(1), 1 4(a), (g), JS (b)(1)




 ( U) According to Depnrtm nt of State officiaL, Pakistan is critical ly important to the
 U.S. strategic mission in the region and to our overal l national security. However,
 Congress and the public are concerned that Pakistan is not producing a measurable result
 to coJTe late with U.S. investment.

 Overview of U.S. Funding to Pakistan (U)
(U) DoD manages severa l programs that provide support to Pakistan. From October
200 I through St:ptember 30. 2008, over $8 billion has been funded by these program
and funding sources (see Table I) . The followin g progrums and funds related to Pak istan
were reviewed in this DoD OIG assessment:

       •     Coalition Support Funds (CSF) is apr gram that reimburses key c1 operat ing
             nations for expenses incurred in providing logistical and military support to U.S.
             military operations. Office or Defense Representative Pakistan staff stated that
             they believed that tht.: Coalition Support Funds authority is the single most pot nt
             Global War on T rror partner- nabling !l)ol in the DoD tool kit for Pakistan.

• (U 1 l'ht: National Security Strategy of th.: nited Slalt::; ur Ameri~:a. p. 9, .i'viurch i 6, 200o.
' (l) The Sl2 billion includes .S. funds in assistance and reimburs'ments by the Coalit ion SuppoTI
Funds. Assistance indudcs funds fl1r military. iaw enforcemen t, c~:onomic development. and diplomal·y.
ln <elligcnce fundin g was not included in thi s repurl.

                                                        - II -
                                                    SECIU:'I
                                      SECRET


•   Section 1206 (Authority to Build Capacity of Foreign Military Forces ) authorizes
    short-tem1 fundin g for equipment, supplies, or training to foreign militaries to
    strengthen a country's capacity to conduct counterterrorism operations and
    participate in or support military and stabi lity operations in wbi ch U.S . Am1ed
    F rccs are a participant.

•   Frontier Corps Authority authori zes fundin g for assistnn ·c in FY s 20m: and 2009
    to enhance the ability of the Pakistan Frontier Cmvs to collduct coun terterrorism
    operations along the border vvi th Afghanistan .

•   foreign Military Financing (FMF) is an appropriated fund that is provided to the
    Department of State but execu ted by the DoD for tbe purpose of prov iding gran ts
    and loans to help foreign countries purchase U.S.-produced weapons. defense
    eq ui pment, defense services. and military training.

•   lnlcrnational Mi litary Educu tion and Training (IMET) is funded in the
    Department of State budget, and is a 10\·V cost, key funding component of U.S.
    security assistanc ' that provides training on n grant basis to students from allied
    and friend ly nations. [M ET is a very impl rtant program that expo ·cs students to
    the U.S . military and the American way of life that has been mjss ing t( r the yt:ars
    that the Pak istan and U.S. military did not work together.

•   Comba ting Terrorism Fellowship Program (CTFP ) is a DoD Security Cooperation
    tool that provides education and training to roreign military and civilian securi ty
    personnel in counterte!Tori sm techniques as part of the U.S. global effort to
    com bat terrori sm.

•   DoD 'ounternarcotics funds ass ist foreign mil itary. lm enforcement and
    inte lligence agencies, and domestic law l!nlorcement in the fig ht against narcotics.




                                        - Ill -
                                     5~€Rii3T
                                                       ~~ECP.ET




                  .
T abl e I : lJ S Fun d'mg to Pki
                              a stan FY
                                     1  2002                 -   rY
                                                                 1  2008 (lJ) ( Dollars in thuusantls)

    CSF
                   F\'02

                  617,000
                                f'l'OJ

                                 913.764
                                             f\" 04

                                             RR4.H24
                                                             F\'05

                                                           1.024.961
                                                                           •   06

                                                                            595,766
                                                                                         FV07

                                                                                         1.24 0JN9
                                                                                                          FV08

                                                                                                         1,019.770
                                                                                                                      Total
                                                                                                                     6,ZIJ6,9!14
 Pa:\•ments
  Section
       1206
     Forei)!n              -             -            -                -     28.000         13,225         55.91 5      97.140
     1\lllitary
      For~ e.'!

     Frontier
      Corps                -             -            -                -            -                      75,000       75,000
 Authol'ity

      FMF          75.000        224.500      74,600         29~ . 800     297.000        297 .ouo        297 ,570   I 564,470

      IMET            622             62S      1.100               1,670       I. 700        1,7 00         2,200        9,620

Combating
Tt>rrorism
FeUowsblp                  -        1.1 22       667                62X         7 14          \19X          1.07\1       5,208
 Program
     Count~r
 1   artotiu            -                -            -          7.700      2X.700         .~9,4 00        54.700      130.500


Total             692,622      1,1 411,014   961,191       1,333,759       951,880      1,593,2.22    1,506.234      11,178,922

Source: Multiple DoD Sources
DoD IG accepted the DoD numbers and did nol va lidate 10 the allm:atinn or expenditure r~conl s .
CSF FY 2002 includes .. JOO,OOO,UOO and FY 20flJ indudes S530. 154.000 of non-CSF that wa:. used to rei mhu n.c 1hc
Government of Pakistan .

Total fundin g lo Pak istan assessed by DoD J(i abnut SS billion.




                                                          - I V-
                                                      SECRIST
                                                 :n::ctt·ET

   ReSiults in Brief
   What We Observed




  ( U) We did fiud, however, that for those items that arc under the end-use monitoring
  program, Pakistan allows the Office or Defense Representati VC Pakistan staff to mo ve
  around th e countty to validate its accountability l()r these items.




        CENTCOM (b)(1). 1 4(a), (g), JS (b)(1)

CENTCOM (b)(1), 1 4(a), (g) JS (b)(1)




                                                   -v-
                                                 SECAJH'
                                              ~ECR_E'f


What We Recommended
~     We made recommenda tions Lo the Secretary of De fense; the Ch a inm~ n , Joi nt Chi ef'S
of Stan; the Under Secrct·ari es of De tense Comptrol lcr/Chie r Financial 0 nice r and
Poli cy; and the Commander, U.S. Central Command for improvements. These
CENTCOM (b)(1), 1 4(a), (d), (g), JS (b)(1)




(U) The details of these results and recommendations and additional observations and
recommendations are in the body of th is report.




                                               - VI -
                                              SEERiZT
                                      SECR£T




Recommendations Table "fet
Client                       Recommendations Requiring   No Additional Comments
                             CommenVI nfonnat ion        ReQuired

Secretary of Defense         J.l                         H.2


                                                         A. I. , A.2.a., A.2.b,
Joint Chief of Staff                                     A.2.b (I), A.2.b (2),
                                                         A.2.b(3), C. I, C.2, C.3. E,
                                                         H.2, I.l.a, l.l.b, I. I.e, l.l.d,
                                                         1.2, J.l , .1.2.a. J.2.b

                                                         A.l., A.2.a., A.2.b,
Under Secretary of Defense                               A.2.b (l), A.2.b (2),
for Pollicy                                              A.2.b(3), C. I, C.2, C.3, E,
                                                         H.2, L l.a, l.l.b, 1.1 .c, l.l.d,
                                                         1.2, J.l , J.2.a, J.2.b

                                                         A.2.a., A.2.b, A.2.b (I),
Under Secretary of Defense                               A.2 .b (2), A.2.b(3)
(Comptroller)



U.S. Central Command                                     0.1, D.2. 0.3, 0.4, H. La.
                                                         H.l. b, H.l.c, H.l.d, J.3.a


Plensc provide comments by June 15, 2009.




                                        - VII-
                                     SECRJ£1'
                          Table of Contents
Executive Summary



Assessment Objectives                                                    4

Obse•·vations and Recommendations

      Part A. Coalition Support Funds Program                            5
      Part B. Train in g and Equipping !'he Pakistan Security Forces    26
      Part C. Foreign Military Financ ing                               32
      Part D. lntemalional Military Education and Training Program      41
      Pnrt E. Combating Tenmism Fe llowship Program                     44
      Part F. Counternarcotics Program                                  46
      Part G. End-usc Monitoring Program                                49
      Part H. Office of Defense Representative Pakistan                 54
      Part l. DoD Plans and Funding tor Pakistan                        60
      Part J. DoD Management of Pakistan Programs                       69

Appendices

      A Scope, Methodology, and Acronyms                                75
      B. Summary of Prior Coverage                                      7R
      C.   Validation Process for CSr Reimbursement                    80
      D.   Pakistan Operations                                         84
      E.   Management Comments                                          86
      F.   Report Distribution                                         108




                                       - VIII -
                                     SECRE'f
                                           SECRET


Introduction

Bac~cground           (U)
(U) Since the cstabl ishment of the State of Pakistan in 194 7, the relati onship between the
governments of th e United States and Pakistau has experienced highs and lows over lime.
Fonner U.S. Ambassador De1mis Kux used the analogy of a roller coaster ride, with its
alterna 1l ing highs and lows, to describe the U.S.- Pakistnnmilitary and political
relat ionshi p. The late. I " low'' o cc urr~d from 1990 t0 200 I. when the Un ited States levied
sanctions against Pakistan over irs nuclear weapons program.

(U) However, followin g the terrorist attal:ks of September II, 2001, the U.S. resumed its
relatio11sbip wrth Pakistan when form er Pres ident Pe rv e~ Musharraf pledgccl that hi s
country would become a key all y in the Global War on Terror (GWOT). Today, the
Uni ted Stales reli es upon the Pakjstan mil itary to patrol and protect Pak istan's western
border and to help ac hieve the U.S. goa l of denying sate haven to the terrori sts and
ex tremi sts.




                                             - J -
                                          ~ECRE'f
 CENTCOM (b)(1), 1 4(a), (g) JS (b)(1)




  (U) Pakistan has taken important steps towards democracy in the past year. However,
  the new government also faces severe budget energy, and economic crises. DoD senior
  officials have stated that th~y arc committed to working with the new civilian leadership
  nod helping the Pakistanis achieve stability .'1

  (U) Public opinion polls released in June 2008 show that 24 r rcent of Pakistanis had n
  favorable opinion of the United States, whi le more than 70 percent believed that the
  United States should give aid to Paki stan in one fom1 or another. Fifty-two percent of
  Pakistanis believed that the United Stn tcs is mostly responsible for the violence in
  Paldstan. 111 A major challenge that both the United States and the Pakistan governments
  face is to comm unicate to all Pakistanis that the war against terrorism is " Paki stan's war"
  and not ''Pakistan figbting a U.S. war."

  Initiation of the Assessment (U)

  ( ) In three individual requests, the 'hairman , Joint Chiefs of Staff; the nder Secretary
  of Defense for Policy (U SD[P]); and the U.S. Ambassador to Pakistan requ~.:. ted that we
  conduct an assessment of programs funded or managed by DoD to support Pakistan.

  (U) First, in early summer 2007, the Director. Joint Chiefs of Sta ff and th e Principal
  Deputy USD ( P) requested that we perform a worldwide performance review of Section
  1206 11 of the Fiscal Ycar 2006 National Defens e Authorization Act (N DAA ), the global
  train and equip authority.

  (U) Second, in late summer 2007, th USD (P) requested a review of controls over
  sensitive equipment items provided to the Paki stan Frontier Corps, which is deployed
  along the Pakistan's border with Afghanistan.
        CENTCOM , (b)(1). 1 4(a), (d), (g)

CENTCOM (b)(1), 1 4(a). (d). (g)




 (U) There was sufficient overlap among these requests to di ·cuss a sing le assessment
 approach with the requesters and the ommander, U.S. Central Command
 (USCENTCOM}. All agreed to our approach to c nsolidate th requests.




 IJ (U} Deputy /\ssistant Set:rct,lry ofDefenst: for Cen1itiJ Asi ~1 . l 'cs tin1on y bcfort- ihe Htnl~l· Ov~rsighi nnd
 Governmen t Reform Subl'Ollllllill ec. Jun e 24, 2008.
  10
     ( U) Cen ter fnr Public Opi nion. Terror Free Tomorrow. June 2008.
  11
     ( U) Section I w06. "Authqrity to Build the Capac ity of' Forei gn Mi litnry l·orccs." Januili'Y 6. 21l0n.


                                                          - 2-
                                                      ~ECRET
                                                             SECRET


Map of Pakistan and Surrounding Region


      - - lnt•mill bound1y
      - · - P1 ovi nc.e· level bo undry
         *           Nt~Pon ,ll c;aQit"itl
         e           Provlnce· le vo l u pilal
                     R.albo~d

                     b pre.UW il)'

                     Ro•d




  0       l OD   '        200 Kllom t ' '

  '
  0




                                                                                            INDIA
                                                                                                          •




                                       'c ntrallntelli gc n~ c Agency ;   modili cd by th e DoD 0 1 J .




                                                              -3-
                                                            SECRET
                                        8ECJlET


 Assessment Objectives (U)
(U) The overall object hie of the Pakistan assessment was to conduct a strarcgic
assessment of DoD managed programs supporting the Government of Pakistan.

(U) Specilically, we assessed the Coa lition Support Funds, Sec tion 1206 and the scparah.:
Frontier Corp specitic training and equip authority for Pakista n, Foreign Military
Financing (FMF), Jntemational Military Education and Training (IMET), Combating
Tenorism Fellowship Program (CTFP), and Counternarcotics (CN) funds to lletenninc
whether policy and guillancc were adequate; sufficient implementation procedures ami
accountability measures were in place; and the programs effectively contributed to the
achjevement of DoD strategic objectives. See Tablcl for a list of these programs and th~.:
funds associated with them.

(U) We also assessed the end-use monitoring (EUM) of sensitive items provided to the
Government of Pakistan.

(U) In addition, we assessed ODRP to ensure that it was organized. staffed. and ftmded
to achieve its mission.

(U) Finally, we assessed Lhe DoD plans and program management in relation to Paki stan
to identify whether appropriate direction had been established to achieve nati onal goals
and whether metrics have been established to m~:a s ure the progress of executing these
plans.

(U) We briefed our preliminary observations and recommendations to the Secretary of
Defense on May H, 200R. We also briefed or provided brieting slides to the U.S.
Ambassador to Pakjstan and DoD senior leaders, including the hairman, Joint Chiefs of
Staff, the USD (P). Under Secretary of Defense ComptroJJer Chief Financiul Officer
(USD[Cl/CFO), and the ODRP Chief.




                                          -4-
                                       !'iECft'ET
                                                        SECRET


 Pant A: Coalition Support Funds Program
 ObsE~rvations                   (U)
 ( ) The Government of Pakistan and specifica ll y, the Pakistan Security Forces are key
 e l ~me nts in support of the U.S. goal s and operations in Afghani stan and the GWOT. In
 2002, Congress granted the Secretary of Defense very broad authority to make CSF
 payments. CSF has enabl ed Paki stan to deploy and maintain over I 00,000 military and
 parami'limry personnel along the Pakistan-Afghanistan border. Since 200 I , Pakistan has
 conducted more than I00 major operations and countless smaller operat ions within
 Pakistan territory, suffering more than 1.400 combat deaths in support of Co aIi tion
 operations in Afghanistan.

(U) CSF is reimbursed to Pakistan in such amounts as the Secretary may determine to be
sufficiently documented. The Secretary's determination is final and conclusive; however,
DoD is required to provide a 15-day notification to Congress before reimbursi ng the
approved claim. Subsequent legis lation required DoD to proviuc quarterly reports on the
use of CSF to the Senate and House Approp1inti ns and Anned Serv ices Committees.
Recent legislation required DoD to provide an itemized description of support provided
by Pakistan for which the DoD would reimburse through CSF.

WOUOJ Although DoD continues to make improvements in analyzing, pro css ing. and
defining Pakistanj claims for cost reimbursement , more improvement is needed.
Spccitically, we found that DoD:

       •    had not documented its discussions with tJ1e Government of Pakistan as to the
            U. S. expected results t!·om Pakistan military suppoti in GWOT and how the U.S.
            Government expected to validate reimbursement claims of incremental costs in
            order to satisfy the requirements of validation for payment estab li shed by the
            Secretary of Defense.

       •    had not establ ished an operational program manager, with tbe primnry focus on
            CSF Pakistan to oversee the management and operations to ensure that the goals
            of the U.S . and DoD were being achieved. 12

       •    reimbu rsed S6.3 billi on to the Guvemment of Paki sta n \ ithout alway fo llowing
            the DoD processes and proced ures to va lidate whethe r u ·t ua llogistica l and
            mil itary support was provided and ade qual~ documentation (financi al and non-
            fin ancia l indi cato s) existed to support its ana lysis of th e reason ableness of
            Pak istani reimbursement claims.

12
     The Office ul' Defense Reprcscnlulive Pakistan is the initial rev it·wt: r of th e l'ak is tan CSF cl aims but can
not establish p nli ~y or establish u budget ond processes for r ·sp oversight. We Jo not consider ODRP a
program manager. Sec Part .I of this reporl.

                                                        -5-
                                                      SECRET
    •   did not timely process CSf claims for reimbursement to Pakistan. It took an
        average of 200 days to process nnd pay claims submitted by the Government       or
        Paki stan.

    •   issued additional guidance on June 19. 2008, and in August 2008 on the use and
        reimbursement criteria ofCSf. We did not assess the implementation of thi s
        guidance as patt of this initial assessment but plan to do so dtuing our follow-up
        assessment. Further, as of December I, 200X, the Government of Pakistan had
        not submitted any claims for reimbursement since the m~:e tings in August 2008
        when the DoD staff met with Govem mcnt of Pakistan staff to exp lai n the new
        criteria.

Background (U)
(U) CSF is a program that was established to rcimbmse key cooperating nations for the
incremental expenses incurred in providing logi stical and mili tary support to U.S.
military opl:nttions. CSF is a DoD program that fun ctions ditf~.;rently from a traditional
military ass istance program because it is designed to reimburse only for incremental costs
incurred as a result of a nation's support to the United States in the Globa l War on Terror.
Incremental costs are those costs incurred over and above normal operating costs and
should not serve as a grant payment for capaci ty building or regular operating expenses
incuned.

( U) We made the following three recommendations to the USD(C)/CFO to improve the
CSF reimbursement pro c~.;ss in the dassified report D-2004-045, "Coalition Support
Funds," issued on January 16, 2004.

    I. Require lhat Coa lition countri es include withi n their reimbursement request a
       support paragraph explaining the methodology used to develop each cost category
       and include adequate documentation to support the request.

   2. Develop and implement proced ures for conducting analyses of cost fnr Coalition
      countri es reimbursement requests.

   3. lneludc, as part of the re imbursement request coordinati on process, a specific
      requirement for the USD (P) and Department of State ( DoS) to confirm that a
      reimbursement is consistent with the U.S . overnmenl National Sec urity Strategy
      and does not unfavorably aftec t the balance of power in the region.

( U) In the January 2004 report, we noted that the USD(C)/CI'O stre ngthened the
requirements for reimbursement of Coalition claims to mee t the intent of the
recommenda ti ons. Speci fi cally, the USD(C)/CFO is ued three me moranua in December
2003 to: ( i) the Deputy Comptroll er (Program anu Budget'), (2) Command ers of U.S.
Combatant Commands and (3) Defense Attaches, Otlice of Defense Coopcmti on
Personnel, Desk Officers. These menu randa wen.: i, sued under the title ''Evaluation or

                                          -6-
                                        SECRET
                                                        5ECIU5T


    Reimbursement Requests f'rom Key oope ratin ~ Countries for osts Incurred in Support
    of U.S. Forces in the Globa l War on Terrmisrn" 3 and vvere to provide guidance and
    defi ne 1thc procedures needed to determine the reasonableness of oa liti o11 countries
    claims for CSF reimbursement.

(U) In add ition to the memoranda, USD(C)/CFO issued supplemental cost-reporting
templa1tes and guidance that have led to improvements in th e reporting and oversight of
the Pakistani claims. This was a result of' the clarifying the documentation required from
all Coa lition countries seeking CS F reimbursement as well as th e process that analysts
need to foll ow when evaluating reimbursement requests.

(FOUO) In December 2003, the USD(C)/CFO, started to include a statement in its
coordination sheet that sp~.:cilically requests the USD ( P) and the DoS to rcvi ~w a
propos·cd reimbursement to a key cooperating nation to ensure that it is consistent with
the U.S. Govemment Nati onal Security StTa tegy and did not un favorab ly affect the
balance of power in the region.

Responsibility for Coalition Support Funds (U)

( U) In December 2003, DoD establi shed a multi -step approval process to revi ew the
Coalition count1y claims for reimbursement before releasing the payment. Currently. the
followin g oflices arc involved in the review, va lidati on, and approva l of the Pakjstani
claims for 'SF reimbursement:

        •     Of'lice of the Defense Representative Paki stan

        •      U.S. Ambassador to Pakistan

        •      U. S. Centra l Command

        •      Under Secretary of Defen se ( 'omptroll er)/ hief Financial Officer

        •      Under Secretary of Defense l'or Policy

        •     Assistant Secretary of Dcfcns for Legislative Affairs

        •     DoD Ol'fice ofGeneral Coun sd

        •     Offic e of Management and Budget (OM B)

        •     Dcpnrtment of State



             O n Jun.:- 1'J . ~008 . U SD(C)/CFO issuL:d upduh:J guidattl'e on CSF.
1
    ' ( U)



                                                           - 7-
                                                       S ECI~'f·
                                                    SECRET

      •   Deputy Secretary of Defense

     •    U.S. Congress

(U) The process for CSF reimbursement begins when Pakistan incurs expenses \Vhile
providing logistical and military support to U.S. militnry and Coalition operations and
submit a claim for those expenses to ODRP at the U.S . Embassy Islamabad. To validate
whether tbe reimbursement claim supports U.S. military operations and th e exper1ses arc
reasonable and credible, the aforementioned organizations revievv the claim.

(U) Once Pakistan submits the claim. ODRP nt the U.S. Embassy Islamabad reviews itt
verify that the supp01t was provided and the expenses were incurred. Followin g this
review, the claims are endorsed by ODRP on behalf of the U.S. Ernbassy lslamabad and
forwarded to USCENTCOM for review. During this review. USC ENTCOM validates
thai the operations were conducted or the level of support was provided and that the costs
incurred were incremental. USCENTCOM then forwards the request with its validation
to USD(C)/CFO.

(U) USD(C)/C FO completes an analysis and cost compari. on of the claim to ensure lhHl
costs were reasonable and credible. The USO( C)/CFO prepares and distributes the claim
for l:Oncurrencc to USD (P). USD ( P) affirms that the disbursement for fund s is
cons istent with U.S. Nation al Security Polit:y and that the payment will no t upser the
balanc e of power in th e region. The claim is also sent to the Assistnnt Secretary of
Defense for Legislati ve Affairs, DoD Office of General Counsel. Offit:e of Management
and Budget. amJ DoS for their concurrence. Also, the US D(C)/CFO prepares a
detennination for the Deputy Secretary of Defen se that costs were justified and sends
letters to Congress, to notify the required committees of the claims 15 days betore any
transfer of funds . 11
                     '

(U) Following the 15-day congrcssionalnotitil.:ation period , USD( C)IC FO releases the
funds to the Defense Security Coop~..: rat ion Agency (OS 'A). Nex t, DSC A authorizes the
Defense Financial and Accounting Service-Indianapolis Center ro electronica ll y send the
fund s to the country 's bank account. A flow ' hart of the CSF reimbursement process and
additional details of this process are de tined in Appendix .

U.S. Expectations of Pakistan Security Forces (U)
(U) OORP oftidals stated that the usc of CSI: is the single most po tent pa rtner-enabling
tool in its arsenal for supporting Paki stan in its dTort to provide support, within Pakistan ,
to our forces in Afghanistan and in the GWOT fight.


    ) The fo llowing congres~ i o n a l comm itlct:s receiw :.~ t5 -day no11ticution nt' CSF pendi ng paymen ts h '
14
  (

DoD: Subcomm ill ee on Defense. Commi ll t'e llll Approrri,uions, U.S. Senate and U.S. H o u ~e of'
Rcprcsentali ves; CommiHee on J\ m1ed Serv ices. U.S. Senat.:- and U.S. House of Repn:senl cl lives.

                                                     -g-
                                                   SECIUiT
                                           SECRET


( FOUO) DoD did not document its discussions with the Gov~.:rnment of Pakistan as to
the U.S. expectations of the Pakistan military support in th GWOT nor how the U.S.
Govcmmcnt expected to validate reimbursement claims of incremental costs in order to
satisfy the requirements of validation established by th e '"'ccrctary of Defense.

(U) USCENTCOM and the Chief, Office of Defense R e prc s~ ntati ve Pakistan stated that
the agreement between the United States and Pakistan was a verbal agreement bet\.veen
the head of both countries after the September II, 200 I, terrorist attacks. We could not
ickntify a U.S. document that recorded thi s verbal agreement. Also, the Ortice of the
Under Secretary of Defense (OUSD) Comptroller st<~ff con linned that there was no
formal document in the fonn of a Memorandum of Understanding between the U.S. and
the Government of Pakistan on the expectation to rei111burse normal cost of operations for
CSF        By not documenting the verbal agreement that establishes both operational
outcome and accountabi lity expectations. the U.S. Government has created an
unnccc:ssary risk that the CSF will be reimbursed for incremental costs claimed but not
incurre d or were not incremental as defined by DoD criteria. This condition contributed
to th ~:: DoD reimbursement to Pakistan of approximately $6.3 billion in CSF from
October 200 I through September 200X without properly determ ining the operational
resu lts or proper accountability for the reimbursement accordin g to the DoD de fined
gu idan ce.

(U A•~ cordi n g to both tbe 2007 National lrHelli gcncc Estimate and the 2008 Director of
National Intellige nce Annual Threat Assess ment , AI Qm:da is and will remain the most
 erio us. tenorist threat to tbe United States. The 200X assessment also reported that
AI Qaeda has a safe haven in th e Federa lly Ad ministered Tribal area and it is using the
border area of Pakistan to maintain a cadre o f skilled li eut enants capa bl e of directing the
organ ization's operations around the world .

(U) Paki stan is a critical partner in CiWOT, and its importance should not be
underestimated. Pakistan is the largest recipi ent of CS F worldwide. A Ithough the
Pakistan Sec urity Forces have not eliminated A I Q a~.: da and oth er extremists operating in
the country, it has conducted operations that have been considered successfu l in
ac hicv·ing some of the planned op eration<~! goal s.

( U) Further, to meet its national security goals in w stern Pakistan, th e U.S. Govemment
should continue meeting with the Government of Paki stan to communicate U.S .
operational goal s in the war on tenor, with a focus on w~.:s tem Pakistan.

Accessibility to Val idate Pakistan's Claims (UJ




                                             -9-
                                          Sli5CR-ET
                                               SECRET




CENTCOM (b)(1 ), 1 4(a), (g), JS (b)(1)

-   -      -     - -   - - -- - - --- - -- -- --- - -- - --
               - - - - - - - - - - - - - - - - - - - - - -
                                                            -  ---- -    - --
                                                                        - - - -
                                                                                  -       -
                                                                                              --   - -
                                                                                                       -
-
~--                                                                               ~--


                     -            - - -                       - -          --         -              -




                                                - I 0-
                                              SECRET
                                          gECR£'f




Pro{Jram Management (U)
(U) noD had not established an operational program manager for the Pakistan CSF
program. Wl1en we brieled the USD(C)/CFO on our preliminary observntions and
recommendations, the USD(C)/CFO stnteu that there shouiJ be a program manager for
CSr b1ut that the USD(C)ICFO should not be the organization to have the operational
program manager. However, many consider USD(C)/C FO as the program management
office because it is the on ly office tlwt hns issued guidance on the CSF progrnm. We
consider the reimbursement to Pakistan of $6.3 billion to be a significant sum that should
have an operational program manager. We also agree that thifl program manager should
not be in the office of the USD(C )/CfO because it could ·reate a pos s ibl ~,;; confli<.:t or
in teres 1.

( U) Fun her, the purpose of a program manager is to oversee rhe manage ment and
operat.ions to ensure that the goals of the United States and DoD for CSF are being
achieved. A program manager would be responsible for the CSF program in Pukistan,
prepare the budget request, and develop the policies and provide oversight that would
assist in having a consi stent operation with enough trained personnel. Sec Part .1 : "DoD
Managt!ment of Pakistan Programs·· for additional di. cus ion and re comm~:ndation s for
improving the program management of DoD programs in Pak istan.

DoDI Guidance (December 2003-June 2008) (U)

USD,(C)/CFO Guidance (U)

(U) In accordance with the USD(C)/C FO December~. 2003 , memorandum, the Deputy
Comp1troller (Progr<~m and Budget) is responsible for ensuri ng that documentation
adequately accounts for the support provided by a Coa lition country. Also, it is
responsible for evaluati ng the reasonableness of each rei mbursement requ est.

(U ) To ensure that the Deputy Comptro ller (Program and Budget) fulfills these
responsibilities, th e USD(C)/CfO requires this office to comply with the Del:embcr 2003
memorandum when documenting its evaluation (or analysis) of the reasonabl eness of a
reimbursement req uest. Specifically, the gu idelines require the Deputy ornptrollcr
(Program and Budget) tu include four primary steps in anal yzing a reimbursement request
by conducting:

   •   a comparison, at the macro level, of claimed l:ost tu the U.S. cost to provide the
       same support;




                                           - II -
                                         SECIHBT
                                           SECRET


    •   an evaluation of the reasonableness of the individual categories for whi ch
        reimbursement is requested;

    •   a comparison of representative U.S. costs for a subset of items (when:: similar
        comparison can be made) and if applicable ;

    •   an assessment tJwt the claimed costs are consistent with previous reimbursemen t
        requests.

( U) Further, the guide! ines outlined the req uirements for   d oc um~.:nting   thi s analysis to
include:

    •   a summary of the steps taken in the analysis process;

    •   a statement addressing what supporting documentation provided by the key
        cooperating nation was used i11 the evaluation ; and

    •   a statement thai the costs incurred are incrementaL that is. based on thl: U.S.
        requirement, and would not otherwise have been incurred by the cou nt ry
        requesting reimbursement.

USCENTCOM (U)

(U ) USC EN TCOM shou ld obtain detai led documentation th at sufficientl y supports the
reimbursement request. The documental ion should :

   •    identify who requested the sc r ice, for what period of time (one time ur
        recun·ing), and the initial estimate of the cost of the supp011 or serv ice;

   •    validate that the support or service was provided and confirmation that the costs
        incurred were incremental:

   •    provide a narra ti v~.: description of the types o f costs incurred and how the costs for
        each were computed; and

   •    contain copies of invoices for support provided.

(U) In the absence of invoices, USCENTCOM should provide documentntion supporting
how the costs were derived for each category of cost and the basis of measurement tor
each cost.




                                             - 12 -
                                          [iii!CIU~'f
                                            SECRET




Supporting Documentation (U)
( U) DoD reimbursed $6.3 bi Ilion from October 200 I through September 200t) withou t
always following the DoD policies and procedures to va lidate whether ac tual logistical
and militmy support wns provided and without adequate documentation to support its
analysi s of the reasonableness of Paki stan reimbursement cla ims.

ODR~P      and USCENTCOM Validation (U)
( U) USCENTCOM did not obtain and therefore torward sufficient supporting
dm.:um enration to the USD(C)/CFO to validate Paki stan' s reimbursement daim .
Act:ording to the USD(C}/CFO December 2003 gu idance, the Combntant ommanders
are responsible for ceni(ying that rhe support for which reimbursemen t is ·!ai med was
actual ly provided by the key cooperating nation and for obtaining from the appropriate
embassy the documentation that adequately accounts for the support provided.

(U) During our 2003 audit, \.ve recommemled tbat Coa lit ion co untri es include within
their rc:imbursement request a support paragraph exp laining the methodology used to
de velop each cost category and inc lude adequat~ documentation to suppurt the request.
The U! D(C)/CFO issucJ revised guidance in December 2003, which c larifies the
documentation requ ired from Coa liti on countries seeking r imbursernent for their support
ofOWOT.

( U) During this assessment of the SC · NT COM validation process, we Jctermined that
USCENTCOM "validation" memoranda descr ibed mi ssions performed and ~e rv i ces
provid ed by Pakistan . The documentation included ponions of the USO(C)/CFO
gu idan ce such as iuen tification of who requested the st:rviccs, tor what period of time, the
initi al -estimate of co ·t of the support/service. and va lidati on that the support/service was
provid ed. However, some of the requirements were not included or provided. for
example, USCENTCOM did not provide:

    •   confim1ation that the costs incurred were incremental;

   •    a narrative desc ri ption of the types of cosl incuJTed:

   •    a descriptio n of how costs \<\'ere computed:

   •    a statement to show that each category of cost was reviewed to ensure costs were
        not double-counted; and




                                             - IJ -
                                           SECR£T
                                        SECRET

    •   copies of invoices tor support provided or in the absence of invoices,
        documentation supporting how the costs were deri ved for each catego ry of cost
        and the basis of measurement for each cost.

(U) We visited USCENTCO M and ODRP to assess whether supporting dot:umentation
ex isted lor Pakistani reimbursement request . US CENTCOM and ODRP officials staled
that supporting documentation, such as invoices and re ·eipts. were not obtained from the
Government of Pakistan . Also, ODRP officials stated that they were not allowed to
observe or va lidate military operations within Pakistan.




USD(C)/CFO Evaluation of Claims (U)
(U ) USD(C)/CFO made improvements in the 2006 and 2007 USD(C)/CF c aluations
and guidance. These improvements included defining a eost template for reporting costs
claimed and increasing the number of defined cost clements.

(U) However, we determined that the USD(C)/CFO staff did not always have adequate
docum~.;ntation to support its analysis ot'the Pakistani daims. In accordance with the
USD(C)ICFO memorandum for the DoD Deputy Comptroller (Program and Budget)
dated December~. 2003, the Deputy Comptroller (Program and Budget) was responsibl e
for ensuring that documentation, such as invoices and receipts, supports the costs claimed
by Pakistan. Also, the USD(C)ICFO was responsib le for evaluating the reusonablencss
of ea h Pakistani claim.

(U) We also found that the USD(C)/CfO ~va lu ation memoranda, which wcr~ the tlnal
documentation to support the payments of the Pakistani cla ims. did not document the
analysis of Pakistani claims in accordance with its own guidance. Specitl~:ally, we
reviewed the evaluation memoranda from December 2005 through Jun ~ 2007 and found
that tiH.:y inciuded statements and spreadsheets that summari zed Pakistan 's
reimbursement claims, USCENTCOM va lidations. USD(C)/CFO evaluations. and


                                        • 14 -
                                       SECRET
                                             Sl!!CIU3'f


 Pakistan 's costs. However, the USD(C)/CFO did not d early summarize th e requirements
 to determin e whether

       •   steps we re taken in the analysi s process to verily the reasonableness of' Pakistan 's
           claims;

       •   a statement addressing what suprorting documentation provided by Pakistan was
           used in the eva luation; or

       •   a statement to refl ect that the costs incurred were based on the U.S. requirement
           (incremental costs ) and would not otherwise ha ve been incurred by Pakistan .

AssE~ssment             of December 2003-June 2008 Guidance (U)
(U) Tilt! USD(C)/CF guidance that was in place December 2003 through Ju ne 2008
was nut adequate for evaluating the reasonableness of Paki stani claims. More and better
gu idan l:C is needed, spec ilil:a lly in (I) defi ning what the tcnn "i ncrementnl costs'' means
in the (;ase of Pakistan; (2) defining additional cost catego ri es, for exampl e, what is an
allowal le reimbursement for equipment lost as a result of combat opcmtions and GWOT;
(3) establishing timcframes for process in g claims; (4) describi ng the
docum cntation/suppon Pak istan needs to provide in support of its claim to show the
op rations in wh ich the costs were incurred and the outc.:nmcs ofthese op ~.:ration s, and (5)
describing th e oversigh t that-is expected of USCENTCOM and ODRP to val idate the
Pakistani claims subm itted und the supporting documcnt uti on of the costs incurred by
operati on.

lncn~mental            Cost (U)
(U) USD(C)/CFO had not consistentl y app li ed its definition of incremental costs when it
evaluated the Pakistani daims for CSF reimbursement. According to the DoD gu idance,
incremental costs are those costs above and beyond normal levels, or cos ts above what a
country would have incurred in the nomu1 l course of its activities. The guidance states
that th1;! USD( C)ICFO intends ·'to sup port requests for reimbursement from countries rhat
ba e incuned incremental costs to provide logistical, mi litary, and other support to U.S .
military operations in connection with U.S. opera tions in Iraq, Afghani stan and elsewhere
in the Global War on Terror."

( U)  'SF is a DoD program that fun ction s differentl y li·om a traditional mil itary
assistance program because it is desi •ned to reimburse on ly f(lr costs in urr dover and
abow nonnal operating costs (in cremental) and not ' ~.: rv c as a grant payment for actua l
expcm;es incurred.

(U) During our rev iew of Pakistani claims, we found several categories of costs that
were t.: Iaimed as im:remcntal costs that normally would be ~;o n s ide red su:-.tainmcn! costs,


                                              - 15 -
                                            SECIH3'f
                                         SECR£'1'


such as for food water. lodging, and laundry. further, if incremental, we could not
determine the baseline costs against which the im:rcmcntal cost were measured. We
questioned some of the costs that were being reimbursed as either normal ~.:osts or
baseline costs or costs that could be incurred by military forces during normal military
operations.

(U) In a November I, 2007, presentation by USD( )/CFO staff to the DoD O IG.
incremental costs were ddined as costs that are above and beyond norma I operating costs
(baseline). However, when explaining why ther~.:: was no baseline established,
USD(C)/CFO and Policy staff stated that all valid costs claimed by Pakistan are
incremental. We do not fully support that opinion and in its own documentation , neither
did the USD(C)/CFO staff.

(U) For exurnple, our review of Pakistani claims submitted March 2007 through June
2007 determined that the category of food that was claimed for the Joint Staff
Headquarters was disallowed. This decision was based on the rationale that the food for
this activity wns not considered an incremental cost. However, we also detcnnined that
before March 2007, claims for the f(,od for this activity were considered as incremental
costs and, therefore, reimbursed by the United States.

(U) As a result of this inconsistent application of'the term "im:rcmental costs'' and the
lack of cl ear gu idance and practice, we believe that USD(C)/CF should clearly define
what can or cannot be considered im:rcmcntal in regard to the Pakistan claims and
determine the baseline of nom1al operating cost for the Paki stan Security Forces in
accordance with the DoD guidance.

Cost Categories (U)
(U) The USD(C)/CFO guidance did not identify or defi11e all c st categoric · for whi ch a
reimbursement would be requested. The guidance requires the Deputy Comptroller
(Program and Budget) to evaluate the cost categories for which the claim is being
requested and to determine whether the claimed costs are valid and reasonab le. We also
believe the. c decisions need to be made in a timely manner.

(U) The USD(C)/CFO December 20!B memorandum did not proviJe guidance for
reimbursement of claims when specia l sih1ations occurred. Specifica lly, for January
2008 Pakistan submitt d u claim for a $20 milli n rcimburs em~.: nt for a Cobra helicopter
that was lost during combat in support of U.S. operations. In Apri l 2008, ODRP asked
USCENTCOM and USD( )ICFO if SF could be used to reimburse Paki stnn for
equipment lost during combat operations if the equ ipment was purchased and provided
by the U.S. In Augu t 2008, ODRP received a negative answer l the qu-·stion in that th ~
claim could not be reimbursed.

( U) However, according to the DoD Financial Management Re 1 ulation V ulumc 12,
Chapter 23. Section 2309 (K) dated September 2007. incremental costs inclu le

                                         - 16 -
                                        SECRET
                                                          tu:etu::r

 replacl:ment costs of attrition losses directly allTibutablc tn support of the uperalion. We
 believe: that better descriptions of reimbursable costs would assist those required to
 validnt·e claims and pn vide for consistent application of the guidance.

 (U ) Further, we beli eve that given the economic condition ofthe Government of
 Pnkistan and the realization tbat there will be losses and worn out equipment because of
 increased combat opcrntions in Pakistan , the U.S. Government needs lo identify funding
 to mee·t these demands. We further beli eve that if the U.S. Govemment does nor meet rh c
 funding requirements to rep lace these Pak istan military lost or worn out asse ts. that an y
 ga in. iu1 the Pakistan military capabilities may deteriorate as the equipment supporting
 those capabilities deteriorates.

Timoframes (U)
I U) Based on our review of the DoD gu idance. we detennined that the USD(C)/CFO has
not dclined the limcframes for process ing claims. During this assessment. we determined
that for claims submitted by Pakistan during the period January 2006 throu gh November
       11
2007, ' it took an average of 200 days to process and pay the CSF claims for
reimbur ·emenr to Pakistan- the shortest time for a claim tn be processed nnd paid was
83 days.

(U) iven the economic conditions in Pakistan. we believe th at any amounts that have
bee n c•ertified as approved should move as efficient ly a. possibl e to payment. Therefore,
the US D(C)/CFO shou ld review the proL:ess and establish a timefi·ame for completing the
evalua tion of a rei mbursement claim I 1 improve the overall processing time of
reimbursement claims.

New· DoD Guidance Issued on June 19, 2008 (U)
(U) USD(C)/CFO has taken steps l'oward improving procedures to reimburse key
cooperating nations for logistica l and military support provided to U.S. Armed Forces in
the rWOT. On June 19. 2008, USD(C)ICFO revi sed it. December R, 2003, guidance to
includt~ more detailed 1 rocedures n the assess ment of claimed costs to the U.S. cost lo
pr vid~ the same support. US D( C)/C f added the following proc e dur~.: s.

                      In some instances, countries eli gib le for reimb ursement of costs mny
                      be unab le to provide the level of quantifiable data generally
                      considered reliable under U.S. standards. Jn these cases if
                      recommended by the designated U.S. Embassy official and £he
                      cognizant 'ombatant Commander, the Department will rely on the
                      Combatant Commander validation and the cornpamlive cost

1
 "   I lJ )   1\ !<   ur
                    August 22, 200X. DuD had made r <l m.:nts for I:OS I~ incurr.:d lhrough ·ovcmbcr _007.
C l a im~      s uhmitled for Occcmbt'r 2007 thro ug h .1111) 2110X Wt'rt' 111 the pro " -s ofbeirp 1 ·vrcwnl by DoD.



                                                            - 17 -
                                                         SEiCRET
                                          SECRET

         assessment to evaluate the claim for reasonabl eness and credibility.
         The comparative cost assessmem will compare the total cost of !he
         country 's suppurtto the total cost of potential U.S. costs for similar
         support to reach an estimate of r otential cos t sav ings and to enab le a
         dctennination that the costs arc reasonable and cred ible.

         In those instances where the support provided by a key cooperating
         nation is recurring or ongoing, the evaluation shall include a
         comparison to previous reimbu rse ments made by the U.S. for imil ar
         support provided for a similar duration. The historica l compari son
         should add ress cost flu ctuati ons that exceed I0 percent in each cost
         category and note changes that occurred in opera tional tempo, fo rce
         stren~o.rth , or cost elements that may ha ve resulted in th e change.

(U) The revised guidance included additional procedu res tor the Combatant CommanJe r
to val idate CSF rei mbw·sement to Con lit i n countries. In the December 8, 2003,
USD(C)/CFO guidance, the Combatant Commander was required to obta in detailed
documentation that suffic iently support s th e reimbursement request and then forward the
documentation to the USD(C)/CFO. The revised gui dance describes the processes by
which the Combatant Commander validates that support provided is in connection with
the U. S. milita1y opt:: rat ions and that ex penses are reaso nable and credi ble II r the
opera tion undertaken by the cooperati ng natio n.

(U) As observed during thi s assess ment, theDecembe r ~. 2003, USD(C)/C FO
memorandum did not provide adequate guidance for th e U.S. Emba ssy Islamabad to
review clai ms for CS F r imburscment. T he rev ised memorandum, however. provides
detailed procedures for improving the U. . Embassy Islamabad process. T hese
rroceclures require a memorandum or letter supporting re imbursement signed by tbe
des igna ted U.S. Embassy official. The memorandum or letter must:

   •   summarize the expenses claimed by the country for support to U.S. military
       operations:

   •   verify the currency ex change r:1 te used and the da te and source   or exchange rate;
   •   describe the support provided by the country to U.S. mi litary operations;

   •   certify, to the best or the Embassy' s knowledge, infonnation. and belief. that the
       country incurred the costs and prov iJed the support;

   •   verify that cxp nses claimed for re imbursement ar. costs reaso nably expected to
       be incurred by the country l·o r the type of support provided;




                                           - 18-
                                        SECRET
                                          SECilEl'


    •   recommend disallowing or defenin g expenses with appropriate explanation (not
        eligib le fnr reimbursement. not reasonable chargl.!s for type of support provided);

    •   recommend use of comparative cost assessment in the absence or invoices or
        other cost documentation;

    •   confirm that the ..:ountry could not provide the support without reimbursement of
        expenses;

    •   in the case of countries that receive recurring reimbursement ~ . verify the
        country 's explanation of fluctuat ions that exceed I0 percent in each cost category
        (increase in troop strength, increase in operations, increase in rood or ruel costs );
        and

    •   verify, to the extent possible, that claimed costs arc charged to tbe appropriate
        category and are not double-counted.

(U) We believe that the revised prot.:edures will assist th e U.S. Embassy Islamabad in
proces:~iing Pakistan's requests for .SF reimbursement. Further, although new
procedures ha ve been implemented, we be lieve that additional revi sions are needed as
outlint:d in our recommendations to ensure that assessments or evaluation s arc adequately
documented and that the process is con sistentl y applied .

U. S. Officials Visit Pakistan to Discuss CSF
Reinnbursement Criteria
(U) In August 2008, staff from USD(C)/CFO, US D (P), USCENTCOM J- 8. and OD RP
met with Pakistani representati ves in lslamahad ro discuss the updated June 2008
guidance. As part of this visit the U. S. Gove rnment representatives also provided
additional guidance that the USD(C)/CFO staff' plans to incorporate in it s nex t CSf
guidance updatt:. As of D~:.:cc mb er I. 2008. the Government of Paki stan had not
submitted and been reimbursed for any new claims since I he U.S. iovernrncnt
representatives met on the new guidance. Theretore, we could not evaluate the impact of
these di scussions or the im pact of the new criteria.




                                           - 19 -
                                         SEE' RET
                                        SE€!U~1'



Recommendations, Management Comments, and Our
Response (U)

A.l. (U) We recommend that the Secretary of Defense ensure that the United States
documents its communications to the Government of Pakistan as to its expectations
about types of operations and results and transparency to validate claims for Coalition
Support Ftmds reimbursement.


Management Comments




                                         - 20 -
                                       SECREl'
    SECR£T




•

•

•              I




•


•




-

     - 21 -
    SEERE'f'
                                        SECR-ET


Our Response




A.2. (U) We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, in coordination with Under Secretary f Defense (Policy):

        a. improve the process and reduce the rime to reimburse the Government
        of Pakistan for the incremental costs incurrt;d in support of U.S. military
        operations.

        b. improve the DoD guidance to ciarify what constitutes a valid datm from
        both operational and financial justifications. This guidance should also answer
        the following questions

                                         - 22 -
                                       fiECRKf
                                                                   SECftE"f



                                ( l) What is the DoD definition of incremental cost for Pakistan?

                                (2) Clarify by formal documentation tbat Coalition Support Funds
                                can not be used to replace or repair equipment lost or damaged as a result
                                of combat operations,

                                (3) Identify alternative funding t11at could be used for this purpose to
                                be consistent in reimbursing incremental costs as defined by DoD
                                Financial Management Regulation Volume 12, Chapter 23, Section 2309
                                (K) dated September 2007, incremental costs include replacement costs of
                                attrition losses directly attributable to support of the operation.




  Management Comments
                                           CENTCOM (b)(1 ). 1 4(a), (g)
  ~
CENTCOM, (b)(1 ), 1 4(a), (g)




                                                                      - 23 -
                                                                 SECRET
                                  SEER:E'f



    'tEt RESPONSE A.2. b:




    ~   RESPONSE A.2.b.(l):




~       RESPONSE A.2.b.(3):




    Our Response




-       ----    -           - -




                                    - 24 -
                                  gECRET
                                SECRET

CENTCOM . (b)(1). 1 4(a), (g)




                                  - 25 -
                                ~IE CRIST
                                             SECRET


Part B: Training and Equipping the Pakistan
Security Forces
Observations (U)
(U) The DoD has two soun:es offuncling for the purpose of training and equipping the
Pakistan Security Forces. Section 120() of the Fiscal Year 2006 NDAA authori zes short -
tcnn fundin g to build the capacity of foreign miliwry forc es. This funding ·an be useu
either as a one- time investment or a a bridge-funding mechanism fo r longe r-term projec t
when immediate needs ari se that impact GWOT until a lon g- t ~ nn fundin g plan can be
approveu.

(U) In our m;sessmcnt , we observed that although ODRP appears to be managing the
 ection 1206 program in accordance with DoD/ DoS guidancc, 17 we could not detem1inc
how ODRP could ensure that projects using 1206 as b1idge fund s would bu ve sufficient
nun- 1206 fund s avail able in the future to achieve the individual multi-ycnr project goa ls.

(U) For Pak istan a second authority was created in the Fi sca l Year 2008 NDAA beca use
Section 1206 could not b used to fun d non-milirary forces. This authority all owed the
DoD to train and equip the Pakistan Fnmtier Corps. This program was in initial stages;
however, Wt! detcnn ined that Iong-tem1 fun di ng had not been ide ntified to ensure tha t rhe
program wo ulu meet its long-term gonl s.

Background (U)
( U) The FY 2006 NOAA, Section 1206, '"Authority to Build t h ~ Capac ity of Fore ign
Mi litary Forces," prov ides DoD, in concunencc wi th the Secretary of State, the authority
to tnin and equip foreign military fun;es, exc luding those in Iraq nnd Afghani stan. The
legislation authorizes DoD to help partner nations build capacity ''to conduc t
 ·ountertcrrorism activit ie. ; or participate in or to support mil itary and stability operation '
in whicb the U.S . Arm~:d Forces are a participant." In FY 2007. Pakistan was I of 41
partner nat ions to rece ive Set:tion 1206 funds.

( U) Further, the Secretary of Defense <lnd the Secretary of State arc required to jointly
tommlatc and uppro e Section 1206 projects. Once approved thl: Secretary of Defense
i. requireu to subm it a 15-day notilication to the Congress before initiating activities in
any country. Thjs notilication must specify, among other data, 1hc program ~.:ountry,
budget, cnmpl ctiou date, and source of funds.



17
 (U) DoD/D,IS Joint FY 2t10X Guidance: Sec tion 1206 oJ'th ·NOAA: Instructions Fur Pn1pnsal
Development and Submiss ion. undated.


                                             - 26-
                                            SECRET
                                             SECRET


( ) When separate appropriations did not exist, Section 1206 programs were funded
from t'hc DoD Operation and Maintenance Appropriations. ID ll scal year 2009. this
authority has its own budget line for funding. Ont.:c a project is approved and funded,
DoD L3ses the Foreign Military Sales (FMS) pro~.: css, dircctl.!cl by the USO(P) and
manag,ed by DSCA, to procure and deliver the training and equipment. FMS is a
gnvcmment-to-govemment sales program of defense artit.:ks and servi ces that is used not
only to enhance the military capabilities of our alli es but nIso to promote interoperability
of mat eriel, logisti cs, and training.

(U) Further, the National Defense Authorization At.:l for FY 200!:1 included a new
authority to build the capr·teily of the Pakistan 's paramilitary Frontier Corps. The
authorization is to provide training and equipment tu cnhum:e the ability of the Pakistan
Frontier Corps to conduct counterterrorism operations along the Paki stan 's border with
Alglumistan . Seventy-five million dollars were authorized in FY 2008 in support of the
trainin g of the Frontier Corps. The FY :2009 NOAA reauthori zed this authority with an
auth orization level of $25 million . (See Parts I and .I nfthis repnrr for more int'om1ation
on the DoD plan, management, and funding for Pakistan)

Training and Equipping Pakistan Security Forces (U)
(U) The ODRP at the U.S. Embassy Islamabad is the Amba sador 's and the DoD leaJ
age nt fo r security assistance to the Pakistan Se~;urity Fon.:cs and is the manager of the
Se ·tion 1206 program for Pakistan . ODRP, in courd inuli on wi th the Am bassador and the
cou nt ry team. Pak istan military and security ofli~.:ial s, and USCENTCOM . manages the
Sec tion 1206 program to support U. S. strategies fi.Jr Paki stan. Pakistan received
approx imately $2~ mill ion in FY 2006, $ 13 milli on in FY 2007. ~md $56 million in FY
2008 .

(U) The strategy for the Section 1206 program is to rap idl y in crease Pa ki sta n's military
capacity to conduct counterterrorism operati ons. Two spec ilit: obj ectives are to :

    •   provide the capa bili ty for spec ial operati ons force:-; to conduct nightt ime air
        assau lI operations in the FAT A and border regions; and

    •   improve maritime counterterrorism capability, dose the open con-idor along the
        Makran Coast of Pakistan, and build inten.Ji lion L:apa ility along the southem
        bord r ·.

( U) Th~;; object of the separale authority for the Frontier Corps tra ining and equipping is
10 provide the Frontier Corps the capability to conduct ustained counterterrorism
operations.




                                              - 27-
                                           f;ECJlET
                                            tsECRET


FY 2006 Program (U)
(U) The FY 2006 funding was used to increase the capability of the Puki~tal) Army's
rotary-wing aviation units. improve the availability of its helicopters, and enhance night
operations. Requirements included aviation ni ght vision goggles; spare parts for the
Cobra AH 1-F, Bell-412, and Ml - 17 helkoptcrs; a night vision targeting system for the
Cobras: and limited visibility training for pilots. These projects focused on training and
equipping the 21,, Quick Reaction Squadron. which is dedicated Lo providing air mobility
to the Special Services Group.

( U) According to the ODRP officials, th 'Se projects are helping Paki stan develop an
integrated rotary- wing assets capability to ex pedite the receipt, analysi s, and
dissemination of intelligence. These capabilities are essential tor rapid pl anning and
execution of Pakistani counterterr01i sm special operations raids in the FAT A and border
regions to fig ht terrorists and extremists.

FY 2007 Program (U)
( U) The FY 2007 funding was used tn improve the training and eq uipment for air
mobility support for the Pakist anj Navy Special Serv ices Group and th e Q uick Reaction
Squadron . Requirements included Ml - 17 hclkop tcr modifications (door-mounted
machine guns). radios, weapons and ammunition, weapon moditications, and body
ann or.

{U) Accord ing to ODRP, the FY 2007        proj c~.: t s   are designed to ;

    •     develop the capability ofthe Specia l Services Group to condw.:l verti cal-insertion.
          night vision aided company-sized attack heli copter-supported raiJs against
          terrorist targets in the FAT A.

    •     provide training and equipment to improve           th~   operational cnic icncy and
          survivability of Pakistani Mar in ~.: units.

   •      improve maritime counterterrorism nnd interdiction capabilities for the southcm
          borders. am.l

   •      close the open corridor along the Makran Coast.




                                             - 2H -
                                           gECIHsT
                                            SECRI!:'f


FY 21008 Program (U)
(U) D 1D prov ided about S56 million in f) 2008 for Sect ion 1206 programs in Pak istan .
The FY 2008 fundin g for Section 1206 is des ignated to support th l: implementation of rhc
US ENTCOM/ODRP Security Development Plan. These progrnms included:

     •   Special Services Group counterinsurgency kick-start ini tint ive to fac ili ta te the
         establi shment orn direc t action capability as pan of the Security Deve lopment
         Plan ($ 17.9 million) ,

     •   Pakistan Army heli copter countertetTorism capability enhance ment ini tiati ves
         which will provide spare parts, maintenance test cquipmcnl, tra ining to improve
         pilot amJ maintenance skill levels, and supply operati ons ass istance
         ($20.9 million }, and

     •   Ml - 17 support program which provides training and equipment for the MI-1 7
         helicopter program (S 17 milli on} .

(U ) Se:parately, in FY 200R, DoD provided $75 mill inn via the Fronti er Corps Authority
to enhance capability or the Frontier Corps pa rticipati on in supporl of the USCE NTCO M
Securi ty Development Plan ($75 mill ion).

C h a ~leng es       in Program Implementation
( U} Section 1206 is the ti rst major DoD authority to be u ·ed expressly for I ru in ing and
equippi ng Joreign military forces. Ge nera ll y, Do D has tra ined and equipped foreign
milit ary forces th rough DoS authority. such as FMF and IM ET. Accordi ng to USD(P )
sta ff, DoD requ~sted its own training and equ ip ping authori ty because the Combatant
Comma nder n ~ede d a fl exib le too l to help them meet military requi reme nts. Further. the
DoS FMF authori ty \-Vas established wi th a peacetime looting and does not respond well
in a wartime or !~1 s t paced and changing contingency environment. As documented in the
DoD FY 2009 Budget Request Summary Jus ti ficati on, da ted Fehnwry 4, 2008,
''traditional security ass istan ce takes three to lom years li·otn com:ept to ext!cution," while
"Global Train and Equip authori ty allows a res ponse to emergent threats or opportunities
in si · months or less.'

(U) Further, al:co rding to ODRP, although they can normully sta rt u response lhs ter, th e
Sectio n 1206 fu nding is implemen ted usi ng the h·adi tional FMS process, wh i ~ h res ults in
the program losing its intended purpose of responding quick ly to GWOT needs because
of the time elapsed between case impl ementation and I00 percent equipmen t delivery.
A lthough the Sec ti on 1206 program is faster th an the FMF/FMS process, it still takes
betw j~ n I R months and 2 years to complete a ection 1206 project. Accord ing to DSC A
oftlcials, this is true if the project includes long lead tim ~.: items likc helicopter parts. A.



                                            - 29 -
                                           SECitE'f'
a result, the program in Pakistan. like all 1206 programs, depends on the ability of
industry to respoml timely to requisitions .

(U) The Section 1206 prm:css includes identification ofthe requirement; submittal of a
request by the Combatant ommandcr and embassy: ve tting by DoD and DoS; appr va l
by both rc::specti ve Secretaries; DSC A notifi cation to Congrcs. ; the release of tunds: and
then the contracting for and delivery of equipment or training. Delivery is undertaken by
DoD for either the equipment or training or both. According to ODRP. the time between
requirement identification and equipment delivery va ries, but it can take up to 2 years
because the vendor usually has until the end of the subsequent fiscal year t.o compl ete the
delivery. For example, the FY 2006 helicopter parts began arriving in mid-FY 2007 and
continue to be delivered as of July 2008.

Management of the Section 1206 Program (U)
(U) DS A. under the direction or the USD ( P). administers <Uld supervises the execution
of all security ass istance programs, inc.luding Section 1206 as. isram:e. DSC A establi shes
FMS case~ for Section 1206 transactions as it would when using FM I·. DSC A charges
3.8 percent for its admini strative s urc harge~.

( U ) However, unlike FMS cases, Pakistan officials do not co-sign a 1206 letter of
acceptance, which reduce the time to complete th e letter of acceptance process.
llowever, according to ODRP, the average timeli ne from the start of a case to complet ion
of delivery to Pakistan can be I 8 months.

( U) As for 1206 bridge-funded projects that are long-term projects, accord ing to
USCENT OM, these projects are only endorsed at the Combatant Command level and
any spec itic long·term fu nding tor the comp letion and sustainment    or
                                                                       th e individual
project is developed by the U.S. country tea m in Pukistan. USCENT OM also told us
that the Pakistan U.S. Security Ass istance ffic c works with the Government of Pakistan
in the normal course of their duti e~ to determine the priori ties fo r sct.:urily assistance
includ ing execution of FMF. However, we cou ld nut identif)' ho'vv future funding was
planned nor could we identify funding with in the U.S. budget or with the Go vernment of
Pakistan to sustain Section 1206 initiatives. We addressed these fundi ng issues in Part I
of this report: "DoD Plans and Funlling tor Pakistan .··

Recommendations (U)
(U) We arc not making any recommendations at this time r~;garding Section 1206
program in Pakistan.

(U) We are also not making recommendations at this time regarding the separate
m1th01ization to train and equip the Pakistan   Fronti~r   'orps since the program is in it
beginning stages of planning and execution .


                                           - JO-
                                         S~CI~ET
                                      5ECIU!'F



(U) We address the need for long-term planning and funding in Part I: "DoD Plnns and
Funding for Pakistan" under Rccommendatinn l.l .d.




                                      -JI -
                                     9Lf!IUiT
                                                        SECKI!Yf



Part C: Foreign Military Financing (U)
Observations Pakistan Program-wide (U)
       CENTCOM (b)(1). 1 4(a) (d)




CENTCOM (b)(1), 1 4(a), (d) JS (b)(1)




Background (U )
(U) ''Fighting tl!rrorism is the preeminent goal of U.S. policy in Paki st an ., , >~ Since 200 l
through FY 2008. in support of that goal, th e United States has provided Poki stan nearly
$ 1.6 billion in FMF.

(U ) FM F is authorized and appropriated to the Department of State. It provides gran ts
and loans to he lp coun tries purchase U.S.- produceJ wea pons. defense eq ui pment, dete nse
services, and mi litary tra in ing. FM purchases must uti bze the FMS pr cess. Congress
appropriates funds for FMF through the yea rl y Foreign Operati ons Appropriations Act.
FMF expendi tures require congressional noti 1icati on for major progrnms and systems.

(U) The DoS Bureau of Political-Military Al'l'airs sets policy for the FMF program, while
DSCA manages the FMS cases on a day- to-day basis. Security Ass istance Orga ni zations.
composed of mil itary personnel in U.S. cmbass i ~.; s overseas, play a key role in managing
FMF wi thin recipient countries.

{U) FMF supp rts U.S. fore ign poli y and regional security goals and enables allies and
friendly nations to improve their deh1sc L::tpabi lit ies and to work towurd common
security goals and share burde ns iu joint mi ss ion . As FMF helps LOuntries meet thei r
legitimate defense needs, it also promotes U.S. national security int erests by
strengthening coalit ions with allies and fr i ndly nations, cemen ting l:OOp~?rative bilateral
military relationships, and enhancing intt: wpcrahilily with U.S. for<.:cs.


IS ll_l) Ridm.rol A. !3l1Ut:l1er. Assistant s~netar_ l!!' ~U!t: li 1 r Suu!h and Cen!r:.!l .'\~ian i\1!~-tir~. Testimony lill
Pakistan Assislanrc, hefore the Senate Commill~.:c on Foreign Relations Subwmmillcc on International
Development. Foreign Fconomic Affairs and lnkrnational · nvironmentul Pwh.:ctiun ,
December fl. 2007 .

                                                          - J2-
                                                       fJI!lCRET
                                                 SECitET




(U) Major Foreign Military Financing FMS cases in Pakistan since 200 I : ~
                                                                                           0




     •   six C-130 transport aircraft delivered, which support opera tions against extremists
         ($76 million);

     •   delivered and installed six AN/TPS-77 radars for airspace survei llance, detection ,
         and tracking missions ($1 00 million);

     •   delivered 12 refurbished Al-l 1-F Cobra attack helicopters with an additional X
         pending delive1y after overhauled ($48 mi lli on);

     •   delivered 2,007 TOW2A of an agreed upon 5,250 anti-am1or missiles ($186
         million);

    •    planned delivery of eight P-3C surveillance aircraft used to patrol Pakistan's
         coastline and borders and to participate in the Combined Task Force-150
         patrolling the Hom of Africa ancllhe Arabian Sea ($474 million); and

    •    more than 5,600 militmy radio sets delivered ($163 million).

Challenges (U)
(U) Pakistan budgets and manages the FMF differentl y than the U.S. Govemment
managers. This difference in process and practices creates miscommunication and has
resulted in delays. For example, while the Uni ted States appropriates money for Pakjstan
as a wbole, the Pakistan Joi nt StatT divides the FMF internally among its Services.
Although DSCA is aware that Palcistan divides the money among the Services, when an
FMF case is implemented, DSC A uses the "oldest" money in the total amount avai lable
to pay for the case even though it may cross several years. From Pakistan 's viewpoint,

'''ts') DOD IG Report No . SP0-2 00~-UO I, " Asse~smen t of the Accoulltahilj ty of Am1s and Ammuni ti on
                                or
PruviJ etl to the Security fo rces   Iraq ," Ju ly .1. 2008. pg. 6 1.
" '(U) C'ongre~ s ional Researcb Service report lQCongress, "Pakistan
 1
                                                                      U.S. Relati ons", 11pdated rvlay 30,
2008. p52 .

                                                  - 33 -
                                                SiECIUS't'
                                           SECRS:r


 the money is internally allocated to the Paki stani Army, Navy, or Air Force, in which
 case the respet:tivc Service will refuse to sign n new Jetter of act:eptan cc if in their mind
 the letter of at:ceptancc costs exceeds their allocation. This confusion has caused delays
 in achieving the U.S. goals.

(U) Further, vendor delays required additi onal bilateral coordination, revi sed letters of
acceptance, higher costs, and w1met expectati ons. This has resul ted in the Government of
Pakistan questioning our commjtmenr to support the securi ty assistance plans.

F-16 Program (U)

Observations (U)

(U) The F- 16 program is a sensitive issue between the Uni ted States :md Pakistan.
Proper management and timely deli ve ry of the F- 16s will have great impact on the futme
United States/Paki stan relationship. Paki stan offi cia ls consider the F- 16 program as a
measure of the U.S. commitment to the Gove rnment of Pakistan .




Background (U)

( U) The F- 1() program is an important symbol of our efforts to reston.: the relations hi p
between the United States and Pakistar . For almost 30 years. Pakistan and the United
States have engaged in recuning negotiations over the acquisition ofdif~ rent types of
F- 16s for Pakistan . Historically, Pakistan has considered the use or F- 16s as part of their
defense strategy to protect their borders with lnJ ia and China.   1 he   v~;:ry ii rst   FMS
ngrccment came in 19R I, when 40 F-16s were so ld to Pakistan, (28 F-16 As and


                                            - 34 -
                                          SI:CIHsT
                                           SECilE"T


   I2 F-16 Bs models). The two models arc identical except that the A model has one seat
   and the B model has two. The final tlcliveries lor this FMS case were mad e in 1987.

  (U} In I 988, Pakistan ordered II additional F- 16s. and in 1989 it ordered 60. By 1989.
  however, it beca me apparent that Pakistan had a nuclem program, and for that reason the
  United States blocked the sa le. In October 1990, the SHic was e llcctively rendered null
  and void when economic and militnry sanctions were imrosed on Pakistan under the
  Pressler Amendment to the Foreign Assistance Act. Pakistan was displeased and
  requested either the planes that it had paid for or its mon ey back. The United States
  compli1~d by refunding Pakistan in cash and other types or assistance.


  ( U) In March 2005, yet another round of f-16 negotiations took place. Pakist<'ln
  reque ~tc d 24 F- 16 C and D (one seal, and two s~ats) model s with a contractual option to
  pro ure ns many as 55.

  (FOUO) The agreement was finalized in September 2006 to provide F- 16 C and D
  model ,aircraft to the Pakistan Air force. The agreement was builL around three FMS
  cases, wh ich included I 8 new F-16s valued at 1.4 billion; F-16 munitions va lued at
  $64 I million; and the mid-life updat' for Paki stan 's existing F-16 fleet va lued at
  $89 1 million.

 (FOUO) The U.S. has also provided Pakistan 14 Excess Defense Article F- 1<i aircraft
 (deliveries occurred in December 2005, July :2007, June 2008 and .July 2008) . Two were
 receiv ing mid-lire updates in Fort Worth , Texas, and would be returned upon compl etion
 of the updates.

 ( FOUO) As currently sched ul ed, I g new aircraft will be delivered in 20 I0 anti 20 I I.
CENTCOM (b)(1). 1 4(a). (d). JS (b)(1)




                                            - 35 -
                                          ElECilET
                              SECR~T




Funding Mid-Life Updates (UJ




Pakistan Funding Issues (U)




                                - 36 -
                              SECRET
                                                                    SEC JUsT


 P-3C Orion Aircraft Program (U)

 ObsE!rvations (U)
                                                                                                                        21
 (U) According to ODRP. the P-JC program is "success ful and on track."            On May 2R.
 200 ' . a new lcll er of agreement was s igned \ ith the Government o t' Paki sta n that
 establi shed a final estimated delivery schedule and spec ili cs P-JC upgrade . e 1uipm~::nt ,
 and services.




                                                                         ( ) The P-3 . Orion surve illance aircraft is
                                                                         programmed to support th e c.:uuntcrt crrori. rn
                                                                         mi ssio n to sec ure the bnrder and coastal
                                                                         regions. As or July 2008. the FM F program
                                                                         delivered two refurbi sh d aircran in 2007.
                                                                         Ei •ht additional aircrafl :Jre programmed for
                                                                         delivery beg inning in 2009. These eight
                                                                         remaining aircrarts arc coming fn m excess
                                                                         U. . defen se articles.

                                          (U) This recon naissance capability L: nham:cs
 the interdiction r communicati ons bdween the Arabi an ea and th ~.: · tg hanis tan-
 Paki ta n border. which supports the i OT cfl o rts and coun ternarc ltics opcr:ll ions.

(U)       n .January 13 , 2007 , AdmirHI Muhammad Afzal Tahir Chief of the Pakistan Naval
Stall s tated that the Ori n is "an ex tremely crsatile ai rcraft . .. and r erfunn s well in n
mullitud e of rol es. including anti -submarine \varfa rc, nnti -surfacc (s hip) ' arrarc ,
maritime surveillance, naval fle et support , search. and survivor supply.'' 12 Operational
ni rcra fl are dual-u e -- GWOT and nationa l def'cn . c.

Pro~Jram                Costs (U)

( ) T   1 tota l va lue of the F S ca. s (a of pril 15, 2 00 ~ ) forth~ r-_C Ori n Progran
wa .., 326 million . . 323 mi ll ion from FMF and .~ 3 million !'rom Paki stan' s l'und ' .!J




: J ( L' ) ODRP. ~ ~c urll y s~ i::. t a nce O ftit•c. l' rn.;ru m 1anagemcnt Rc,·iew. Apr!I 15. ~UU~.
21
     (LI ) Stalemcnlmnde on January tJ , 2007. before the det11 cry otth e fi rst P-.\ C" on Janu;uy IX. 2007.
Source: htt    :fl \1 \\'\~ .   •lobalsc:cullt .or ' ' Willll   llbrurv_t nc\\ ,'illilki:-.tall' 20071 -;ukJ ~I!.J n-0701 13 - Jrnuo~.htm
2) ( U ODRP. ecurily Assislnncc Oflice. Program MnniJ!_!l'menl t{l· vicw. April t5. 2 00 ~.


                                                                      - 37 -
                                                                   5ECIUiT
    Cobra AH-1 F Helicopter Program (U)

    Observation (U)
    (U) We found that:

        •    the Cobra A H-1 r Helicopter program is 3 years behind schedul e.

         •   there has been a $2 1 million program cost increase based on Pakistani
             requirements changin g over time. Tht: final cost of the program is still not known
             beca use there are still eight aircraft to be overhauled .

    Background (U)

    (U) Two separate U.S. assessments of Pakistan 's maintenance and log istics practices
    contim1 that the Pakistan Army has not invested suffi cient fund s in the maintenance,
    sustainm nl , and operation of Paki stan 's Cobra heli copters.

(U ) According to the ODRP staff, the Un i!t:d State agreed Lo provide Paki stan 20
refurbi shed AH- 1F helicopters, more commonly known as obra helicopters, to bol ster
Pakistan 's ability to tight counlerteJTorism. The agreement was desi gned to give the
Pakistani Anny an edge a:-: the helicopter is niglll-capable, wh ich is a decided advantage
against ten ori sts, who often lack the abili ty to tight in the dark . The agreement expa nds
Pakistan's fl eet, as it had already acquired 19 refurbished hclil:o pters of the same model.

(U) According to U. S. Joint Chief.<> of Stall personnel, the Cobra helicopters have rroven
to be successful fi ghting the Ta liban and other militants. In December 2007, a Pakistani
incursion into the Swat Va lley included 15,000 Pak istani troops aided by Cobra
helicopters and artillery. AI o, according Lo unconfirmed reports, after tierce fi ghting, the
Pakistani troops had kill ed at least 290 Ta liban fighters while losing onl y 5 of their
own. 24 In addi tion, n April 23. 2008, the haim1an of the Paki stan Joint Staff provided
the DoD OlG wi th a li st of opera ti ons 'vvhcr he stat · I the helicopters were a key enabl er
in the Pakistan fight in the westem area of Pak istan (see Appe ndi x D: Pakistan
Operations).




1
    ~ ( U) ''Pakistan Claims Uppt'r I land Ag;tinst Tnliban"(ABC N ·ws). 0 1!~.: ·mber ~ . 2007.

                                                        - J~   ­
                                                     SI~EKE"F
                                            SECftt:'f




Delcays (U)
(U) According to ODRP, the delays for the Cobra helicopters, as well as the cost
increases, have been substantial. The letter of agreement was signed in May 2004 and
the case was awarded to the lowest bidder, although that bidder did not ha ve th e expertise
and experience necessary to execute the program .

(U) This is one of the most important programs for the Pakistan Am1y ; ho wever, only 12
of 20 excess defense articles refurbished Cobras have been deli vered. The remaining
eight require congressional approval to obligate the additional funding.

(U) Further, according to DSCA, Pakistan has onJy spent a tiny fra ction ofU .S.
assistance since 2001 on this program. DSCA further provided that Pakistan has spent
about $48 million in FMF on the Cobra program while at the same time Paki stan spent
$478 million in F MF on the P-3 program and $3 34 million in FMF on the F-16 mid-life
update. Until such time as Pakistan accepts that the costs of operating the Cobras is
substantial , and allocates funds accordingly, the Pakistan Cobra program will continue to
suffer from poor operational readiness.

Rec~ommendations,                       Management Comments, and Our
Response (UJ
C. 'f€7 We recommend that the Under Secretary of Defense for Policy:

       1. Lead an interagency effort to prioritize U.S. cooperation with Pakistan
       and ensure that the resulting Foreign Military Financing I Foreign Military Sales
       process and identified programs being supported are adequately funded and
       focuses on common U.S. and Pakistan objectives.

       2. CENTCOM (b)(1). 1 4(a), (d)


                                              - 39 -
                                            SECft'E'f
                                        SECR£'f'




Management Comments

(U) RESPONSE C.l: DoD partially concuned. They stated that the new administration
is conducting an interagency review of its overall strategy for Afghanistan and Pakistan,
which will include cooperation with Pakistan . DoD agrees that the U.S . should prioritize
U.S. Security cooperation with Pakistan to ensure that the FM F and FMS process are
suppmted, adequately funded, and focu s on common U.S.-Pakistani objectives. However,
the Department of State, not DoD, has the overall lead for Security Cooperation and
interagency coordination on the administration of the FMF/FMS programs. DoD works
closely with the Depmtment of State and U.S. Embassy Islamabad as the U.S. and
Pakistan work together to identily and prioritize funding needs and program objectives.

(U) RESPONSE C.2 : DoD concurred with thi s recommendation .




Our Response




                                         - 40-
                                       SECR-ET
                                            SECft:Kf



Part D: International Military Education and
Training Program (U)
ObsE!rvations (U)

(U) The lntemational Military Education and Trai ning (!M ET) program in Pakistan is a
low-co!;t, key funding component of U.S. security assis tance that provides grants for
training students. In FY 2008, the IMET program was supporting the training of an
estimat ed 265 Pakistani officers and noncommissioned ofli ccrs. Spec itically, we found
that:

    •   AL:cordin 1 10 ODR P, !MET authori zations do not always provide enough time
        before the start of the training to se lcd students, process their vi sas and
        app lications. and make their travel arrangements;

    •   The lM ET program in Paki stan is recovering from an 11-year suspension created
        by U.S. sanctions, which im pacted the education and tra ining tor mid- ond senior-
        level officers now servii1g in the Pakistan military. We could not determine
        whether these officers were a targeted priority for the !MET program or ifwhl.!n
        the IMET funds were alloca ted to Pakistan, this shortfa ll was c msidcreJ a
        pri ority;

    •   I MET may have the potentia l for an immense retum on investment in Pakistan.
        ODRP stated that IMET has major impact when a member of the Pakistan
        mi litary is exposed to the U.S. mi litary;

    •   According to ODRP. most Pakistani students do weli in the courses that they
        attend; however, it is difficult to conclude how this training is being employed.

Bac l~ground          (U)
(U) !MET is a DoS-fund cd progra m managed by De D. Thi s program is a low-cost, key
component of U.S. security ass istance that prov ides grants tor training students fio m
allied and friendly nation s. According to ODRP, th e IMET program exposes students to
the U.S. professional mi litary estab li shment and the American way of life, including
among other things, U.S. regard for democratic va lues, respc~:t for indi idual and human
rights, and beli ef in tbe rule of law. Students are also exposed to U. S. military procedures
and th'~ marmer in whic h our milit:uy functions und"r civilian control. Tbe main
objectives of the I MET program are to further the goa I of region a I stubi lity through
effective, mutually benetk ial milit::11y -to-mili tary re lations, vJhi ch culminate in increased
understanding and defense cooperati on between th ~;: United States and toreign countries.




                                             - 4 1-
                                           SECRE'f'
                                        BECRE'f

(U) !MET objectives are achieved through a variety of military education and training
activities wnducted by the DoD for foreign military and civilian officials.
IM ET ha taken on greater importance as an effectiv e mean s to strengthen militcuy
alliances and the international Coalition against terrorism.

IMET Funding for Pakistan (U)

( U) Pakistan received approximat ely Sl.7 million in FY 2006 and again in FY 2007 for
the !MET program. For FY 2008, Pokistan rece ived about $2 .2 million.

ODRP IMET Process (U)
(U) Accon.ling t ODRP, electing and veiling students and process ing thei r app li cations
and tra vel requirements is a labor-i ntensi ve, manual process requiring freq uent
communi cations and conespondencc with each candidate. ODRP furth er stated that late
release of' authori zations and training quotas ~;ompli<.:ate the timely and effic ien t
accomplishment of the program goa ls.

Recommendations, Management Comments, and Our
Response (UJ
D. {U) We recommend that the Commander, U.S. ·entral ommand working in
coordination with the Department o State:

       l. EstabHsh lntemational Military Education Training allocations during the
       fiscal year before the execution year to improve program and quota planning,
       student selection and vetting, application and visa processing, and logistical
       arrangements.

       2. Prioritize lntemational Military Education Training efforts on mid- and
       senior-level officers affected by the 11 -year suspension of tbe program and
       increase the priority for aUocation of International Military Education Training to
       Pakistan.

       3. Consider increasing International Military Education Training funding for
       Pakistan o leverage the miJirary~to-military benefits of the program.

       4. Consider requesting, through the appropriate channels, that Congress
       authorize and appr priate rnternati nal Military Education Tnti.ning funds for two
       years rather than for one year in order to improve the planning process for
       International Military Education Training in Pakistan.




                                          - 42 -
                                       SECRET
                                  SECRET


Management Comments
(U) USC'ENTCOM concurred recommendations D. I through 0.4

Our Response
(U) Commander, USCENTCOM commcnl s w~re responsive. No addit ional comments
are required.




                                    - 43 .
                                  SECitE'f
 Part E: Combating Terrorism Fellowship
 Program (U)
 Observations (U)

(U) The CTFP prov ides targeted educa tion and training in~.:ombating terrori sm
techJJiqucs to foreign mi littuy and civilian personnel. Accord ing to the USDt P) staff, the
CTFP goals include building strategies, institutional capac it y and partnerships, and are
focu sed above the tacti cal and operati onal levels. They also stated while some
operational training is provided, it is not the focus of th e program. According to the Do D
FY 2007 Annua l CFTP Report to Congress, the Regional CTF P has become n va luable
tool in the global light against ten-orism . For example, an Afghanistan-Pakistnn
Confidence Building Seminar brought together senior-leve l participants fi'Olll
Afghanistan and Pakistan on neutral ground to discuss border sec urity and other issues of
mutual interest in the war on terrorism. The seminars built confidence and trust among
Afghan and Pakistani oflicers engaged in the ti ght against terrorism, \.Vhich in turn
supports U .S. operations in Afghanistan .




Background (U)

( U) Th CTFP is a DoD secUiity cooperation tool that provides education and training to
foreign military nnd civilian security pcr~t)Jlncl in counterterrorism techniques as part of
the U.S. global effort to combat terrorism . T he program enables DoD to h lp partner
nations address terrorism threats within their borders mor' effectively and helps
strengthen support for U.S. and Coalition efforts to uelcat terrorism. In :!003. CTFP
became a pennanenl program when Congrcs. included it in the National Defense
Appropriation Act of FY 2004 (Publi~.: L n I 08-136) . A new section of the U.S. Code
(Title I 0, section 2249c) gives the DoD the authority to spend up to $35 million per year
to pay any costs associated with the ed ucation and training ''of foreign military officers,
ministry of defense officials, or security officials at United States milit::u-y educationa l
ins titutions, regional centers, conferences. seminars, or or her training progrnmii
conducted under the Regional Defense Combating Terrorism Fellowship Program.'·

                                           -44-
                                         SI!:CitET
                                           SECR£T


Accord·ing to ODRP, Pnkistan had received $714,000 in FY 2006 and $998,000 in FY
2007 for CTFP. According to USD(P) stall in FY 2008. ODRP re~.:c i ved abou t
$ 1,079JJ 4 for CTFr.

( U) The CTFP is foe u ed on strategic and operational-level ~ ducat ion and train ing in
combating ttm01i sm for mid-to-sen ior-level foreign military officers, ministry of defense
offtcial:s, and security offi cials. The Assistant Secn~ tary of Defense for Spec ial
Operations and Low Intensity Conllict pro ides policy overs ight and management. and
DSCA provides linancial manag~.:m c nt.

( U) The FY 2007 DoD annual report to Congress on CTFP describes the rrogram goal s
as follow s:

    •   build and strengt hen a global network of experts and rractitioncrs in combating
        terrorism at the operational and strategic levels;

    •   build and reinforce the capabilitic for combating terrorism b partner nations
        through operational and strategit:-level educntion:

   •    contribute to effort s to coun ter ideo logical support for tenori sm; and

   •    provide the U.S. Mi litary with a llt:x ible and proacti ve probrram tha t can respond
        t  merging requi rements for combating tcn·ori sm.

(U) ln FY 2007, 55 Pakistani students attended 25 training courses. Detail s ot'these
training and education activi ties we re detailed in the FY 2007 DoD annual report to
Congress on CTFP.

Recclmmendation (U)
(U) We are not making nny recommendations at this time regarding the C'ombatmg
Tenmi srn Fe llowship Program in Pak istan.




                                            - 45 -
                                          SECIU3T
     Part F: Counternarcotics Program (U)
 Observations (U)
 (U) We did not perform a detaileu assessment of the operational effects of the
 Countcmarcotics (CN) program; our observations are based on di scussions and briefin gs.
 However, the DoD OIG ;\udit is conducting a review of contracts supporting the DoD
 Counter Narcotcrrorism program that includes contracts supporting CN in Paki stan. ~ 5

 (U) ODRP St'ttcJ that this program has provided positi ve impacts to the U. . goal s in
 Paki stan . Specilk ally, we found that :

        •    DoD CN fundin g to Pakistan has increased each fisc al yea r since 2005. and thcs
             funds were used for many of the key initiatives in Pakistan.

        •    DoD plan showed that all FY 2008 CN fundin g (estimated at $54. 7 million) wa:
             earmarked to provide support to the USCENTCOM /ODR P Securi ty Developmem
             Plan. W!; di scussed this plan in Part .J : DoD Plans for Pakistan.

 Background (U)
(U ) Opium production in Afghanistan has turned Paki sta n into a transit zone fo r illi ci t
narcot ics traffick ing to Asia and Europe. Th is tra tllck ing 'Ontribute. to the instabi li ty in
the region and provides funds for the Taliban , Al-Qaeda and other mili tan ts.

(U) DoD CN program funds have                    b c cnus~d    to increas the capabiliti es of the Paki stan
Sec urit y Forces to :

        •   support the count ernarcoti cs activiti es between the Afghanistan-Paki stan bord er
            and Pak istan's sou them coast;

       •     provide equipment and inlh tstructurc nssistancc lor ma ritime survcillanc.:c and
             interdict ion operations;

       •    bui ld capac ity for the S p e~.:ia l Services Group and Fron tier Corps in support or the
            USCEN COM/ODRP Security Development Plan ; and

       •    improve key se ·urity capabi lit ies at s"l cted airports.

(U) CN fu nds assist foreign military. law enforcement, int elligence agencies, and
domestic law nforcement in the light against narco tics tmfticking. DoD CN efforts in
Pakistan have foc used along the Makran Coas t and along the border between Pakistan
1
 '   This review is be ing condm:lt:li under project code 11 200 K -DOOO A S -0~5 5 . 0 00 .

                                                         - 46.
                                                       SECR ET
                                                    SECIU:r


and Afg hani stan with initiati ves to help interdi ct and stop the 1lmv of narcotics traffickin g
from A l'ghanistnn. From FY 2006 through FY 2007, DoD funu eu $6H million and in
FY 2008 fund ed about $55 million to support the Unit ed tntes ami Paki stan objectives to
build the counterteJTorism and count ernarcotics capacity of the Pakista n Coast Gua rd,
Mnritirne Security Agency, Frontil:r Corps, Spec ial Services Group, Anti -Narcotics
Force, and Customs Agency. Highlights of the CN program in Pakistan arc shown in
Figure F- 1.

Figure F-1: Counternarcotics Infrastructure Support FY 2005 to FY 2008

                         FYOS·FYOB CN Pakistan Infrastructure Support




Legend: AFG = Afghanistan
        MSA - 1ari ti me Se1.· mit y /\genry

(U)       uurce: USD (!') .


(U) Stt1pport Along thr Sout hern and Makran Coasts The Pnkistnn Coast ruard ,
which is responsib le for Cl ntrolling the land nrea along th e coa. I, r, II · und'r the control
of the Minislt)' of lnteri r. The Do      N fund s have supported inf'rastructurc projects
and provided and refurbisht!d equipment, in cluding:

      •     Phase I: 16 Observation towers

      •     Ph a e II : I 0 Obs~..:rvntion towers

      •     Refurbi sh 3 Paki ·tani Coast Ouards patrol boat



                                                    - 47 -
    •   Equipment: forward looking infrared radar systems tl.>r refurbi shed patrol boats

    •   Refurbish 36 Coast Guards outposts

    •   Equipment : 12 motorcycles and 6 radar for patrol boats

    •   Equipment : 2 mobil e scanners in Karachi nnd Uthal

(U) Pakistan's Maritime Secm·ify Agency. The 2,5 00-strong Maritime Set.:urity
Agency, headquartered in Karachi, is under the operational control of the Pakistan Nnvy
and is responsible for patrolling Pakistan's waters. The Agency is equippell with a former
Pakistan Navy destroyer, two coasta l patrol crnft, and four oceanic patrol era fl. CN runds
have been used to improve communications, eq uipment. and infrastructure.

(U) Improved Secu rity at Selected Airports. The Pakistan Customs Agerll'Y is very
similar to U.S. Customs in structure and fun ction and is responsibl e for controlling
personnel and cargo leaving or entering the country. CN funds have been uscu tu pro ·ure
baggage and body scanners and provide equipment , such as dog kennels, VHF radios .
and so forth. for airports in Karachi, Islamabad, Quclta, Peshawar, and Labor~;.

(U) Anti·Narcotics Fore(:. The Anti-Nan.:utics Force is under the opt. : rational control   or
the Paki stan Am1y but has police powers. Its missi n is comparab le to the U.S. Dn1g
 ... nforccment Ad ministration mission. CN funding was used to refurbish one Pnkistan
Ml - 17 helicopter.

Recommendations (U)
(U) We arc not making any recommendations regarding the counternarcotics progTam.




                                          - 4H-
                                        St!JCRE1'
                                           ~ECI~ET




Part G: End-use Monitoring Program (U)
Observations (U)
(U) A !though there are challenges in completing timely inventory reviews, the End-use
Monitoring (EUM) program overall accountability was adequate ami there were no
discrepancies at the time of our visit. Spec ifica lly. we found that:

    •   the shortage uf ODRJ> Security Assi stHnce Office personnel and the fi·equent
        tumovcr were t~1ctors that contribute to chal lenges in maint.aining establjsbed
        procedures as inventories increase. We aJJress ODRP staffing in Part H: Office
        of Defense Representative Pakistan .

    •   as de lined by the DSC A, the items that were covered under the Golden Sentry
        end-usc monitoring Program and delivered to Pakistan under t11 e FMS program
        consist of night-vi sion devices, as well ns Stinger and Harpoon mi ss il es_

    •   the past shortcomings in the EUM pr 1ccdurcs have been well-documented and
        clearly addressed in the DSCA Compliance Assessment Vi sit, compl eted in
        November 2007, and subsequent correspondence between ODRP, DSCA, and
        USCENTCO M.

    •   the ODRP Security Assistance O ni c~.: has made signiticant improvemen ts to
        address the EUM procedures in Pakistan. ODRP emphasize. the continuing need
        to cducatl! the! Pakistani offici als in the underlying reasons why ce1iain sensitive
        items req uire a leve l of accountability and control.

    •   DSCA , along with the ODRP Security Ass istance Office, is providing
        accountability by monitoring the end-us ' of defens e articl es provided to Pakistan .

Background (U)
(U) TheE     M program is intended to establi sh procedures to ensur security and
accountability of sensitive items provitlt::d to Pakistan_ The program de lines, through
memoranda of agreement, the specitic steps that end users must take t ensure
comp liance wilh U.S. and DoD policies for safeguarding and con trolling sensiti ve
materials. Timely compliance with est:.tb lishcd policy and procct.lur~s and cooperat ion
bct\ve,en U.S. and Pakistani offic ials arc c~sent ial for long-tenn suppl rl.

(U) Golden Sentry is the DoD EUM program that monitors the end use defense  or
articles and serv ices provided to rorcign c u~tom e rs or iutemationa l organizations through
govemment-to-go ernment programs. The goals of the Golden Sentry program include
technology security, industrial base prate !ion, and foreign ~:omp lian ".


                                            - 49-
                                          SE5€:1lET
                                            SECRI!Yf


(U) The lack of accountability and control procedures for sensi ti ve items in Pakistan may
result in the loss of critically sensitive wen pons nncl dev ices, which gives a tacticaJ
atlvantage on the battlefield. Although items such as Stinger missiles and even larger
weapon systems su~h as Harpoon mi ssiles arc relatively straightforward to secure and
con trol, smaller sl:nsitive items, such as night-v ision devices present a g rc.·~itc r challenge.
Night-vision devices are small portable devices used by individual so ldi ers or crew
members, typically on the front line of combat operations. There are inherent difficulties
with securing and con trolling these items. Unq uestionably, night-vision devices provide
a clear tactica l aclv:ultage to Pakistan Army troops and helicopter crews deployed to
border outposts in the FA TA. These troops engage frequently in tactical operations
against AI Qaeda. Ta liban, and other terrori. t. and extremists. Sec Tabl e G-1 for a li st of
EUM items provi ded to Pakistan. At the time of our visit in April 200H. tl1ere were only
682 of the 687 ni ght vision devices in inventory. We observed Jhm1 records and ODRP
staffvalidnted that five were lost in a combat operution.

Table G-1: End-use Monitoring Item in Pakistan (U)

     Description                          Nomenclature                      Quantity

                     AN/AV-6                                                 I 2
Night Vision Devices AN/P VS-7                                              200
                     AN/PVS-14                                              355
       Total                                                                687

  Stinger Missiles          FIM-92 portable surt:1ce 10 air missile         57
       Total                                                                57

                            AGM-ER air laun ched anti-ship mi ssile     40
  Harpoon Missiles
                            RGM-84 surface launc hed anti -ship missile JO
         Total                                                              70
                           ·- 200X.
( U) Source: ODRP, /\pn l IX,

Staffing the Security Ass istance Office for End-use
Monitoring (U)

( U) During our vi:>it we observed that then: was one designated officer assigned to
manage the Sec urity Cooperation lnfom1ation Portal database for the Pak istan EUM
program and maintain suppo1iing documentati on of sensitive items, such ~L.., reports on
combat losses, annual and quarterly inven tories, letters of ofter and a ccept~mce .
memoranda of agreement, and relevan t DSCA guidance. We addrt:ss ODRP staffing in
Part H: "Ofiice of De fense Representation Pakistan."




                                             -50 -
                                           SECIU;T
                                           SECRii:T




Night-Vision Devices (U)

                                          (U) The inventory of 687 ni ght-v ision devices
                                          was delivered to Pakisran in .June 2004. The
                                          inventory is m a in t<~ined by serial num ber. In the
                                          original memorandum of agreement signed in
                                          2004, DSCA required the Pakistan Army to
                                          ~.:onduct a monthly I00-pcrl:ent inve ntory of all
                                          night-vision dev il:es. In addition, the agreement
                                          required a quarterly I 00-perct: nt inventory
                                          conducted jointly by U.S . and Pakistan ot'ticials.

(U) According to ODRP Security Assistance Office staff. from FY 2004 to FY 2006 the
inventories were inconsh;tently performed and not well -documented. In July 2006, it
took 6 months to complek a quarterly I 00-pen:cnt in ve ntory. In .June 2007, the U.S.
withheld the issuance of 72 night-v ision devi ces to the Paki stani military units based on
noncomplian c~.: with the DSCA EUM policies and the agreement. By the second quarter
of FY :2007, thl.! EUM program for ni ght-vision devices ~,;a m e into complianc e lor the first
time with the comp letion of a joint I 00-perccnt inventory. Subsequent quarterly joint
invcntmics have been conducted in a timely manner amJ in comp li an~.:e v ith EUM
policies.

(U) In Septen1bcr 2007, DSCA conducted a Golden Sentry Compli unce Assessment
Visit and found that the overall EUM program li.>r night-vision devices neellcd
improvement. The assessment noted the previous noncompliance with ti·cqucncy of
inventory. lack of adequate records to verify that inventori es wer • being cond ucted, and
Jack of availability to invcntmy many night-vision device units. Th DSCA assessment
recognized the significant challenges that ODRP laced in complying with DSCA EUM
po licies. Pakistan has more than I00.000 secu rity forces deployed in western Pakistan.
where the usc of night-vision devics is clitical in the fight against tenorists and
extremi sts.

lmp•:.ct of Monthly Inventory (U)
( U) To conduct inventories of night-vision devices in acco rllanl:e with EUM policies. the
devices musl b retrieved from rhc border outrosts wh re they arc used in ongoing
tattiru l operations. Ther arc 700 border outposts dispersed over dirti ult t n·ain. ODRP
requested that DSC A consider changing the frequency of the inv ·ntory requin.: ment to an
annual I 00-percent invent01y to accommodate the logistical chilllcnges in conducting
 I 00-pc!rcent quarterly inventories. DSCA comp li ance assess ment concluded that
··significant improvements have occurred" in the EUM program in Pakistan sinl:e 2006,
including the ODRP full use of the .; UM Security Cooperation lnfonn4tion Po rtal


                                            - 5I -
                                          SECIUfl'
                                          SECRi!J'i'


database, and the continuing ODRP efforts to educate Pakistan officials on their EUM
responsibilities.

( U) Based on our observations, we support the change in tlexibility of the method of
oversight. We believe that the very procedures impl emented to sec ure and control
sensitive items should minimally interfere or Jisrupt critical combat operations. Several
ODRP military ofticers recounted their beli ef that recent enemy attaeks against Pakistan
Army border outposts wero deliberatel y timed to coincide with the monthly or quarterly
inventory of night-vision devices. L t::~ke advantage of the lo. s of night-vision ~a pabilit y
when the devices were taken off the front lines to be inventoried at rear area locations.
Situations such as this should not oc~.:ur. hanging the i11 ventory method to make it more
random should improve thi s situation. DSCA ami ODRP should maintain fl ex ibility in
th ~: EUM procedures to a<..:~.:ommodatc the logistical challenges in admini strating a
compliance policy during <..:ombat operations. while achieving the ultimate gmd. that i..
preventing the loss. theft, or diversion of sen iti ve technology .

Sti nger Missiles

                                     ~U) Stinger miss il es were stored at Novvshera Arm y
                                     Depot, Pakistan. DSCA requires an annual I00-
                                     perccnt inventory. At the time of our visit, the lnst
                                     inventory was conducted and compl eted in September
                                     2007. According to DSCA and ODRP records. the
                                     program is in compliance with EUM policies.




                                          - 52-
                                         SECRE'F
                                                                                            SI?:CIU3'f




    :ti •YS K..a.. ( ll o\fl .\(   h. ll '!$1 t~ !.
                                     A G, ~.'   ell\
                                     • 1Af:I 'Of}l f
                                                       Alif.l t'>~ (.
                                                        !l14 U
                                                                          A·~.\\~..s :
                                                                        P ll t·W O:JI1· 1        Harpoon Missi les

                                                                                                 (U) The Harpoon missiles were stored at
                                                                                                 the Pakistan Navy Missile Complex near
                                                                                                 Karachi. The missiles had not b~cn
                                                                                                 deployed. so the in ventory process at the
                                                                                                 time of our assessment wns relatively easy.
                                                                                                 DSC A requires an annual I 00-percent
                                                                                                 inventory.

                                                                                                 (U) At the time of our visit, the last
                                                                                                 in ventory was couducted and completed in
                                                                                                 September 2007. According to DSCA and
                                                                                                 ODRP records. the program is in
                                                                                                 compliance with EUM poli cies.




Recc•mmendations (U)
 (U) We are not making any recommendations at this time regarding the end-use
monitoring program in Pakistan .




                                                                                             -5 3 -
                                                                                            SISCRrT
                                            SEC~CF




Part H: Office of the Defense Representative
Pakistan (U)
Observations (U)
(U) The rol e ofODRP is growi ng in size and imrortance, requiring a change in the
organization and staffing of the office. ODRP reports to both the U.S. Ambassador to
Pakistan and to the USC NTCOM for its mission in Pakistan. Specifically. we found
that:

   •   the Ambassador and ODRP did not have authorities or fun ling available to
       address immediate needs that could be small investments in building the trust or
       the Pakistani people. In Iraq and Afghani stan , the Commanders ' Emergency
       Response Fund was determined to be effective in building trust among the lo~.:al
       population . While those circumstances arc different in that the U.S. mHitary
       personnel are on the gTOuJJd and able to inkract directly with the end-users of Lh
       Commanders ' Emergency Response Fund, some accommodation in Pakistan
       would be useful in our effort to legitimize th e ro le of the Frontier orps and
       Pakistan Anny in border areas where the writ of Pakistani governance is less than
       in th~.: populated areas. Tbe urgency of establishing such an authorit y in Paki stan
       is all that much more important in the context of the cutTent displace ment of over
       200,000 internall y di splaced persons resu lt ing from Pa ki stani mili tary operatio ns
       in the border region.

   •   the United States did not ha ve a Status of Forces Agrcemeni with Pakistan to help
       regulate the milit ~ t)1 - lo- mili tmy relationship, which put ~ increased pressure and
       responsibility on the ODRP personnel to manage importa nt relationships with the
       Paki stan military. As additional U.S . military personnel travel to Pakistan in
       support of train & equip programs and bilateral military exercises, sul.:h an
       Agreement becomes critical to protectin g U.S. personnel.

   •   another difficul ty for ODilP i11 establi shi ng relation shi ps is th e sta1f's short-tour
       rotations and having the level of experience and correct sk ill sets to r erfom1
       dut ies assigned.

   •   ODRP prov ides the ini tia l review of the Pukistan mi lit:uy reimburs ement claims
       for SF and has a key management ro le for all funding provided to Pakistan that
       is for programs covered in this report. Ln August 2008, the ODRP CSF staff were
       provided additional training.

   •   although the USCE NTCOM stu ff reallocated staff to ODRP as a res ult of analys is
       of its requirements for security assistanLe positions a ross its area of


                                            -54 -
                                           SKCR£1
                                           SECitE'f'


        responsibility, it hns not det ermined the required skill sets and experience needcu
        to perform the ODRP mis. ion. Give n the importance of this organi za tion as one
        of three key roles in the GWOT al@g with Iraq and Afghanistan , it should have a
        top ptiority to stay filled to I00 percctH with skill sets, experi ence, and grades
        required.

Bac~~ground           (U)
(U) The mission ofODRP, in coordination with the U.S. Embassy Islamabad Country
Team and U.S. and North Atlantic Treaty Organizati on- International Secmity
Assistance Forces in Afghanistan , is to promute and enhance U.S. security interests in
Pakistan. ODRP manages security assistance, liaison , and military-to-military
engagements in order to improve Pakistan's security and stability. OD RP is also the
front-et:ld monitor of the reimbursement claims against the CSF.

( U) Before September II , 200 I. U.S. Defense interes ts in Pakistan were handled by a
four-pe:rson Security Assi stance Office headed by a co lonel, with a separate Defense
Attach~6 Office. After September I I, 200 I, military and contractor personnel were added
to the U.S. Embassy Islamabad on an ad hoc basis to manugl' the in cr~.:a sed mili ta ry
respons ibilities. The ODRP was cr~.:ated to provide an umbrella organization for most
DoD elements in Pakistan and in recognition of Pakistan's strategi c importance in the
war on terrorism.

(U) Allthough t11 e United Sta tes/Pakistan defense relationship has grown in complexity
and importance since September II , 200 I. the ODRP has not grown commensurately.
OD RP is the DoD organization over ·eeing and faci litat ing rhat relationship and the
supporting programs. These multiple programs require the oversight or dirc~o: l
management of mul tiple programs and CSF reimbursements to Paki tan and , as a recent
req uiremen t, the Securit y Development Plnn ns discussed in Parts I and .I of thi s report.

( ) On December 2 I, 1007. as a Secretary of Dcfcn·e directed initiative. DoD issued
Directivc 5 105 .75 to create the posi tion of Senior Defense Of'ticer as the prinl: ipal DoD
official in U. S. embassi es. This directive al so estab lished the Seni or Defense Officer as
the Defense Attache and Chief of the Security Assistance Organ ization.

(U) On January 14,2008 , the U.S. E mba ~sy Is lamabad and th e C hi e l~ ODRP r quested
ass istam;c in providing adt!itional pennancnt Se~: uri ty Assistance Office personnel in
support of' the ODRP. The request lor more personne l is to support the growing FMS <mel
t h ~ military-to-military sup port to Puk.istan.


( ) On February 15. 2008, DoD initiated the ·•immediate SlHtrcing"      nr additional
manning to support ODRP.




                                            -55-
                                          5ECIU3'f'
                                          SEf~RET




Request for More Personnel (U)




Challenges to the ODRP Mission (U)

                or
(U) The value continuity is essential to th ~ work that ODRJ> conducts with the
Pakistan military. but there continues to be a rapid tu rnover rate with tours of 6 1 12
montbs . The rapid and unsynchronizcd personnel turnover causes turbulence in the
organization, resu lting in loss ofinstih1tional knowledge and productive relationships
with the Pakistanis. It also hinders conducting a long-term, . trategic mission- that of
helping forge a successful security relationship wit h Pakistan .

(U) ODRP personnel did not receive adequate train ing in the langungc and customs
before starting tlPir tour in Pakistan that would ha ve ~.; n abled them to fom1 solid
relationships and build trust with the Pakistanis. AIthough the Defense A ttachc Office
selects perso•me l one yenr out to prepare for language and customs, ODRP p~.:r onnel did
not receive simi), r training even though they have a simj)ar degree of interaction with
host country nationals. There are no ODRP positions that mandate language proficiency.
Although all ODRP personnel are supposed to receive training on cust ms of the area
before deployment, this limited training does not prepare them to int eract wi th Paki stani s
with ease. We were told th at this type of training was too short, is conducted at home
stations, and is not fonmtli zed.

(U) With the CSF claims growing and the validation of the claims becoming more labor-
intensi ve, as well as the increase in the U. S. as istance by the mu ltipl e programs
discussed in this report, the proper training to manage these programs is essential. In
addition, the ODRP mission has expanded to help rmmage and implement the
USCENTCOM Security De e lop m ~.: nt Plan. Further, accordi ng to USD (P) staff.
USCENTCOM has established a 1.kdicntccl asse t at OD RP h.1 mLJnagc the S DP.

(U) Morl!over, as an add it ional duty and despite not having the reso urces. ODRP
provides the majority of support to the ma ny visitors ofthc ODRP programs. Thi s
support translates in to a large bun! ·n for ODRP that takes ODRP assets away from
important tasks. DRP visitors have increased from I 0 in December 2007 to almost 50
in April 2008 as shown in hart H- 1.




                                           -56 -
                                         SECIU3'1'
                                    SECitE't'


Chart lfi-1: ODRP Visitors December 2007-April 2008 (U)




(U) Source: ODRP, April 24. 2008.


CENTCOM. (b)(1). 1 4(a). (d)




                                     - 57 -
                                    SECRE'f
Recommendations, Management Comments, and Our
Response (UJ
H. I. (U) We recommend that the Commander, U.S. Central Command:

       a. Consider establishing the Office of Defense Representative Pakistan
       personnel tour lengths at a minimum of 12 months to form solid relationships
       with the Pakistanis.

       b. Direct that before deployment. Office of Defense Representative Pakistan
       personnel be trained in the Pakistan customs and have the required skills to
       perform the mission.

       c. Establish an official training program for Office of Defense Representative
       Pakistan personnel who are tasked with managing, reviewing, and requesting U.S.
       funding and reimbursements to Pakistan. Further. personnel being staffed at
       Office ofDefense Representative Pakistan in program oversight and execution
       positions should go through a program management course de. igned for this
       assignment.

       d. As a high priority, conduct a troop-to-task analysis of Office of Defense
       Representative Pakistan personnel and adjust as necessary to verify that tbe
       organization is authorized ufficient personnel at the proper grade, with the
       needed experience and skill sets.

Management Comments

(U) USCENTCOM concurred with the f'ollowin , comments :

(U) I) They agreed with r commendation H 1.:1. believing lhe length of tours should b
increased to a minimum of 12 months. Pre-deployment training and demobilization will
incur roughly two additionai monihs of the tour. as weii as requirements for specific on-
the-job training during tum-over. Increasing tour length to 15 months will provide a
longer contad time for relationships to function and grow, provide more stability by

                                          -58-
                                        SECUET
rcduciulg the number or relationships thnl have to be reb uilt, and will provide better
conlitmi ty within each assignment.

(U) 2)1 In regards to recommendation H l.d, during the USCENTCOM .Joint Ma nning
Document (JMD) conference, ODRP presented a req uest ro add billets 10 !heir JM D.
Through this process, ODRP analyzed their cwTenl billets and found they did not have
su ffici~.mt personnel and in some cases personnel without !he proper exp ·ricnce and skiII
set. In the end, ODRP requested an additional41 personnel and made changes to grade.
cxperi•ence, and sk ill setli . Th is action is ·utTently in staffing al USC, NT 'OM. In order
to make proper projections for their future needs, USCENTCOM J I continues to work
with •DRP in ana lyzing billets ensuring ODRP is staffed to meet ir growing mission.

Our Response

(U) Commander, USCENTCOM commen ts were responsive. No add itional comments
or ac ti ons are requ ired.

H.2. (U) We recommend that the Secretary ofDeferu;e, in coordination with the
Secretary of State develop a longer tenn funding strategy to continue the t\mding oftbe
Ambassador's request to meet the goals counter-insurgency doctrine by following
military operations with humanitarian and economic development and rewarding the
tribes who fight militants.

Management Comments

(U) DoD concurred, st·lt ing that a. m ntioned in the Secretary of Detcnsc notification to
C ngress, DoD is considering reque ting a dedicated llmding authority l build Pakistan's
count(:rinsurgency capability as part of tht.:: FY 2009 Suppl emental War Request.
Estab l ishiog such a new fund and authority would support I he multi -year Security
Development Plan and wo uld be used to organize, train and equ ip Pakistan i security
forc es to conduct counterinsurgency operations and defeat the asymmetri c threat that they
face a long the border in the FAT A and in the North West Frontier Provinl:c. This request
includes a humanitarian assistance component that is inl'~nded to partly address the
Amba ssador's request Further. DoD is engaging the Department of Slate through the
Adm inistration's Afg hanistan-Pakistan strategy review process to identify other
initiat·ives that will addr ss issues sut:h as economic de v~:lopment and rc\-vards to tribes
that agree to confront militants.

Our Response

DoD comments were rt:sponsivc. No additional comments or actions nrc r'quired.




                                           - 59 -
                                         SECRET
                                                          !'ii~CRI<''f




Part 1: DoD Plans and Funding for
Pakistan (U)
Observations (U)




( U) Spccitically, we found that:

        •       funding in FY 2008 for SDP was from the following three sources:

                  a. Counternan.:ot ics program ($54. 7 million)
                  b. Frontier Corps- specific. authority {$75 million) and
                  c. Section 1206 ($56 million)

        •       all three funding ources had to be obligated in FY 2008 and some of these
                funds were not allocated until late in the fi sca l yenr, which significantly limits
                the time avai labl e to obligate these funds .

        •       there was no funding identifi ed or ava ilable for this multi-year plan beyond
                2008.

       •        as noted in Pan B oftbis report , there are challenges to ensuring long- term
                funding for train ing and equ ipp ing the Pakistan Security Forces.

       •        at the time of our visi t, ODR P did not have enough personnel or other resources
                necessary to ovr..:rsee and ensure proper rece ipt, storage, issuance, and
                ar..: countability for the signifi cant amount of cqui pmenl being pu rchased and
                fie lded as part ofthe SDP.

     CENTCOM. (b)(1). 1 4(a). (d)
- -     -   -       - -  - -   - -     -     - - -       -   -- -     - -   -                  -   -           -       - -
                  - - - --               - - - --        - - - - - - - - -
~   ---     ---   -    - --- -     -   -- - --       -     - -- - - -     --    --   --   --       -   -   -       -   -   -




                                                           - 60-
                                                         SECRET
                                           SECIU!T




(U) The Chairman, .Joint Chiefs ofStaffhas call ed for the development of a national
strategy for the region and both he and the Secretary of Defense ha ve emplwsized that iL
is vital that the strat egy not only be to develop military capability but also strengthen
capacity of other governments agencies and our lorcign partners.

( U) in November 2008, USCENTCOM undertook a comprehensive strategic review
directed towurd developing unified strategic-level regional and sub-regional plans for the
USCE \JTCOM area or operations. A Joint Strategic Assessment Team of more than 200
individuals ti·orn the DoD. DoS. USA ID, Commerce, Treasury, Justi ce, and key allies
convened to initiate thi s assessment and planning process. Howeve r. we were told that
tl1e Joint Strategic Assessment Team has bee n renamed the Commander' s Assessment
Team with a intemal DoD focus. Even with the name change, we support th e initial steps
taken by the USC FNTCOM Commanuer anu beli eve there is a need for a unity of effort
particularly in regard to the support of the Afghanistan efforts with Pakistan.

Situiation as of Spring/Summer 2008

USCENTCOM Security Development Plan (U)

Baclkground (U)
(U) Tbe SOP is the USC ENTCOM-Icd security element of the U.S . [ mbassy Islamabad
FA TA Development Strategy which supports th e larger Pakistan Sustainable
Development Plan . The SDP is a multi-year plan (originally scoped as J·Y 200 7 to
FY 20 12) designed to ass ist Pakistan in : ( I) securing the border with Afghanistan:
(2) denying sate have n ro extrem ists on Pak ist:mi territory; and (3) creating a security
environment fo r the border population so the U.S . investments in deve lopment and
govemance can yield res ults. To accomp li sh these objectives. the SDP has the fo ll owing
programs: (I) train anJ equip program fo r thl.! Frontier Corps; (2) tra in and equi p program
for spe:cial operations uni ts of Pakistan's r~g ul ar Army; and (3) enabli n 1 elements such as
Border Coordination Centers. Sector H ·adquart ~rs ra ·i lities and impn v~mcnts to
Pakistan's Army Aviation assets. The SOP also ~..:o n ducts civi l-military relat ions
programs and provides co u ntcrin su rgcn cy-rc l:.~ted training for the Pakistan Army .




                                                I-
                                             - (i
                                          liiiECitE'f
                                              SECRR'f


Chart 1-1: Pakistan 's Sustainable Development Plan (U)

                          Pakistan's Sustainable
                     Dcvc lopmcnt Plan for the FAT A
                                  $28
                                     I
                 I                                     I
          PAK Element                             nitcd States/
             - $ 18                         lmemational Donors
                                                 -S IB
                                                       I
                 I                                     I                         I

   Sccudty Development Plan                    Governance                  Development
     CENTCOM I ODRP*                     U.S. Embasi'ly, Islamabad           USAID


                 ~
                                Train and Equip
                              romicr Com Authoritv


                 -              Train and Equip
                                 Section I206
                               SSG and 21st QRS

                               Enabling Elements

                 ---           Counter Narcotics
                              BCC Section HQs and
                                    FCTCs


(U) *The lJSC'ENTCOM/ODRP Security Dcvclopm~nt Plan is one element of the Gnvcmmcnl of
Pakistan Sustainahlc Development Plan for the.: FA T'A.
( U) Source: ODRP. April 17, 2008.

(U) Hlue = Unitetl    tales
(U) Yellow = Pakistan




                                                - 62-
                                             SECRI5T
(U) On April 17. 2008, the Government Accountability Office (GAO) issued
report GA0-08-622, "The United States Lat:ks Comprehensive Plan to Destroy
the Terrorist Threat and Close the Safe Haven in Pakistan's Federally
Admitristcrcd Tribal Areas .'' This reportrevie'vved Pak istan 's Sustainable
Development Plan. The report recommended that th~.: Nationa l Security Advisor
and the Di rector of the National Counterterrorism Center, in consullation w·ith the
Sec reti'lil'ics of Defense and State, and the Administrator of U.S. Agency for
lntemational Development, the iJ11clligenc" community and other executive
departments as deemed appropriate, implement the congressional mandate to
clcvelojp a comprehensive plan using nil elements of twtional power to combal the
tetToris.t threat and close their safe haven in Pak islrln 's FA T A region .

(U) DoD agreed with the recommendation to develop a comprehensive plan to
close safe haven. in the FA TA and responded: " In November 2007 <lnd February
2008, DoD prov ided to the State Department inputs for a comprehensive
strategy."
       CENTCOM (b)(1), 1 4(a), (d), JS (b)(1)




Plan Phases (U)

( U) Tlhe Securi ty Development Plan for Pak istan · s Western Border Region is an effort
by USC ENTCOM , in coordinat ion with the Governmen t uf Pakistan, to improve Pakistan
Security Force (military and param ilitary) capabiliti es. The SOP is a multi -ycnr
multi -faceted program with a comprehensive counterinsurgency approach to enhance
Pakistan's ability to secure its border with Al'ghanistun.

( U) T he SOP initiatives includ e the fo llowing:

   •        Two training centers for the Fronti er Corps: one in Warsak and the othe r in
            Ba lochi stun;

   •        Two Frontier Corps In telligence Batlalions;

   •        Sixteen Jh.: w Fron1icr Corps Wings (Battal ion equivalent ) and li.1Ur Scclor
            Headquarters established in the FAT A/Northwest Frontier Province;




                                                 - 63 -
                                                SECRET
                                                   SECR-13'¥


        •   Six Border Coordination Centers to share intelligence, develop a common
            operational picture on both siues of the Durand line,Y' and help coord inate the
            activities of 1he U.S., A(ghanistan , and Pakistani anni cs in the area:

        •   Trai ning of special operations forces aud thereby improving the capabili ty of
            night air assa ul t missions; and

        •   Pak istan Army and Aviation Enhancements to pro vide susta inable air mobility
            and fi re support to the Anny and Frontier Corps count ui nsurge ncy operations.

 Resources and Funding (U)

 (U ) The SDP is the DoD key program to build the Pa kistan's counterinsurgency
 capabilities, and is cun entl y fu nded by three main sources
 (nuthori zation s/ar propriations): SL;:ction 1206, Frontier Corps Authority, and DoD
 counternarcotics, each ~.-v in1 its ow n constra ints and limitations, whic h makes ir diffic ul t to
 manage and designate fun ds.

Challenges (U)

(U ) Although SOP is a multi -year program, it rece ives si ngle-year fu nding. Further,
appropriations hi storica ll y have nut been allocated unti l late in the fi s ·al year. For
example, as of Jul y 200R, the Special Operations ommand 'entra l was awai ting the
allocation of$75 mi llion under thl: authority to build the capacity of the Front ier Corp ·
and another $56 million under its Sc~.: tion 1206 authority to bui ld the cnpac ity of foreign
mil itary forc.:es. Given thai all fund ing sources must be ob ligat ed in the cun·cnt fisca l
year, thi s significantl y limits the time avail able to obligate !hcse fu nd s. Also, Secti on
1206 fund s cannot be used for paramilitary force and call not be used in forward
budgeting since they are all ocated via a competiti ve se lection process eacb year.




( U) Further, ODRP is not manned to receive, store. issue, and account for the signiticant
amount of equipment being purchased and fi elded as pari of the US ENTCOM SDP. As
a result, there is a potential risk of losing acco un tability as we have noted in our
 1
   U) The Durand Line. the western border betw c~ n Pakis tan and Afghan istan. wus dd inea ted in I ~93 :ts
' ' (

the boundary be tween then Hri tish Indi a and Afg h ani~ l an . fhc in lem;llio nal commu nity hns recognized the
Dura nd line ~ ince the erl.'ation of" Pakistan in 194 7.

                                                     - 64-
                                                  SECRET
                                           5EERlST

  assessments in Iraq and Afghanistan. Also, see further di scussion of ODRP in Part H:
                or
  ''Offi ce the Defense Representative Pakistan .''

  Situ21tion as of December 2008




  Proposed Funding Plan




        CENTCOM, (b)(1). 1 4(a), (g)
  ILW
CENTCOM, (b)(1), 1 4(a), (g)




 {U) Further. in its report Highli !!hls of a Forum: Enhancing U.S. Partnerships in
 Counterin g Transnationa l Tc1Torism (GA0-08-887SP, July 2008) GAO reported that
 particip:.mts identifi ed strategies for addressing key challenges. One of these chall enges
 was th e lack of tk xible fundi ng. The report noted: "Jt was suggested that fund for
 countcrtcnorism program. and activities be made llex ible so that funding could be bes t
 allocat ed where needed and therefore, haw the most impact." DOD OIG suppmt s the
 need to prov ide as tlexib lc funding as possible but al so to have the necessary
 management controls and oversight that arc reasonable, effecti ve, and transparent_




                                             - 65 -
                                          SECRET
                                            tJE(:HET


Recommendations, Management Comments, and Our
Response (UJ
I. I. (U) We recommend that the Secretary of Defense, in coordination with the Secretary
of State:

          a. Request funding for the implementation of the Security Development PJan
          in a single Title 10, fund request rather than from multiple separate funding
          sources as in the current situation. Ensure that this authority is flexible and
          applicable to both military and paramilitary forces and that it is disaggregated
          from the Department of State's Foreign Military Financing program. We belleve
          this separation is important because under the Foreign Military Financing
          program, we observed that Pakistan influences the selection of items to be funded
          and these items have not always been in sync with the DoD identified needs fur
          improving the Pakistan Security Forces. Further, we believe this funding
          approach will also allow the U.S. Central Command Combatant Commander
          greater influence to target the development of Pakistan 's counterinsurgency
          capabilities in support of operations 1n Afghanistan.

          b. Request authorization from Congress to carry over unobligated funds from
          fiscal year to fiscal year in order to provide maximum flexibility in a very
          uncertain operating environment.

          c. Create a Security Development Plan operational program of record that
          includes budgeting in the Future Years Defense Plan.

          d. Establish a long-term Foreign MilJtary Financing or other funding plan
          that identifies the resources needed to ensure sustainment of the Section 1206
          equipment and programs, Foreign Military Sales Ca.-es, and re: ources required tor
          executing the Security Development Plan.

Management Comments




(U) RESPONSE l.l.b: Tht: Under Secretary ofDetense fo r Pol icy pnrtially m ncurrcd.
They stated that DoD is considering requesting a dedicated funding authority to build
PaKlstan · countennsurg ency capa b'lility
  1   •   p         •                  ' HS part 01 t Iil: r YL."'Qt u
                                                    L'    P '<J     n
                                                                       ' ;:o, upp1cmcnta I ,.war
                                                                     " !11                    '
Request. Such a request would be d ~::s i gned lo allow adequale time to obligalc the fund s
so there would not be a need for no year funding. DoD will consider requesting

                                            - 66 -
                                           SECRE'f
                                          9ECR£T


author·ization from Congress to cany over unobligated funds from fiscal year-to-fiscal
year or that the fund s pro vided be des ignated no-year funds if additional Jlcx ibi Iity is
required in future budget requests. The .J oi nt Chief of Sta IT did not concur with the need
for n .. year funding.

(lJ) RESPONSE I. I.e: DoD concurred. They stated that as mentioned in the Secretary
of Defense notificHtion to Congress, DoD is considering requesting a dedi~,;atcd fundin g
authority to build Pakistan's counterinsurgency capability as part of the FY 2009
Supp lemental War Requl!st. DoD is also examining opii ns for longer t rm planning nnd
budgeting for such a program.

(lJ) RESPONSE l.l.d: DoD concu!Tcd. They stated that as mentioncJ in the Secretary
of Defense notification to Congress, DoD is considering requesting a dcdicalcd funding
authority to build Paki stan's counterinsurgency capability ns part of the FY 2009
Supplemental War Request. n,at authori ty would include sufticient tl ex ibility to provide
the Combatant Commander and his representative in Islamabad the tools necessary to
improve the counterinsurgency capabilities of Pakistan's security forces. The PCCF will
co mpl ement, not rep lace, other sources of funding for Pakistan- including Foreign
Militall)' Financing.

Our Response




1.2. (Ui) We recommend that the Defense Security Cooperation Agency in coordination
with the U.S. Embassy Islamabad and Office of the Defense Representative Pakistan
identify and include in the Letters of Offer and Acceptance charges for the costs
ass ciated with accountability and control and use these funds to pay for the articles and
servic•es necessary to provide security fi r deHvery, storage, and distribution of urgently
needed equipment to the Pakistan Security Forces.

Management Comments

( U) CtoD concutTed with comment. lJolJ stated that thi s recommendation should be
revised by replacing the phrase "devote adequate resoun.:cs for accountnbi lity and control
and" with the phras ''include in the Ldt •rs of Offer and Ac~cptanct: charges for the costs
associated with accountability and control nnd use these funds to pay for the articles and
scrvict:s necessary to .. ."



                                           - 67-
                                         8ECR:E'f
                                        5£Cltl!!'f


Our Response

(U) We revised the lan guage in the n.:commendation as requ est~o:d by DoD since the
revised recommendation language meets the intent of the actions we initi all y
recommended. No additional comments are needed.




                                         - 68 -
                                       ~ECHET
                                            SECRET


Pant J: DoD Management of Pakistan
Programs (U)
Obs•~rvations                     (U)
    CENTCOM (b)(1). 1 4(a). (g) JS (b)(1)




(U ) vVe did not identify an overall program manager for the DoD programs in Pakistan
nor did we identify any one office in DoD responsible to ensure thnt there was a unity of
effort among the programs. Although ODRP was in Pakistan as u USCENTCOM
activity. we determined that it was not the opera tional program office responsib le for the
planni Klg and execution of the multiple DoD programs in Pakistan. In fa ct. we observe
that rh,ere were mnuy others that plan the vari< us DoD and U.S . programs. others that
determined how much funding would go to those programs. In fact, we found that ODRP
did not always participate in the decision prOl'CSs.

Prog:ram Managcntent (U)
(U) As noted in Part A, in May 2 0m~ . DoD hnd not established an operational rrogram
manager for the Pakistan CS F program. We briefed the USD(C)/C FO on our preliminary
observations and recommendat ions, the USD( )/C FO stated that there should be a
progra m manager for      f but that 1hc USD( )/CFO s hould not be the organization to
have the operational program manager. Cun·cntly, mnny participants in the mnnagemcnt
process consider USD( ')/CTO as the program manageme nt office because it is the only
office that has issued guillance on the CSf program. However, we consider the
reimbursem~.:nt to Pakistan of about $6.3 billion to be a significant sum that should have
an opc:rationa l program tmnager ami agree with the USD (C )/CFO it should not be the
USD( I )/CFO.

(U) Further, whi le the ODRP carried out the execution of programs in Pakistan, mu ltiple
of11c"s within USCENTCOM performed as monitors of the individual programs. As


                                             - 6l) -
                                            SECRI5"F
                                           SECR_ET


noted, th ere was no overall program manager for the DoD Pakistan programs. Tbe
purpose of a progra m manager is to oversee the management and operation s to ensure
that the goals of the U.S. and DoD are bein g aehiewd. We b li eve that a program
manager would have overall responsibility of the Do D programs in Pa kistan, prepare the
DoD buduet reques t. develop the polici es. and prov ide ove rsight that wo ul d ensure that
ODRP and other. upport teams ha ve con sistent operations with enough trained rersonncl.
The program manager would also be the DoD office to coo1:dinate the unity of effort
among all the U.S. Govemment programs from the DoD perspecti ve. However th e U.S.
Govemment unit y of effort policies should be above this office and coord inated wi th the
U. S. Ambassador to Pakistan.

Defense Consultative Group
( U) The Defense 'onsultnt ive Group (DCG), led by USD(P), is the senior-most De fen. e
bilateral meeting between the United States and Pakistan. The DCG brings together
defense leaders ti·om the United States and the Govcm ment of Pakistan to discuss issues
  f concern to both countri es. According to USD( P) staff, the DCG is not a swnding body
but a bil ateral meeting that is supposed to occur annually al <dte mating eap il<ll. with the
US D(P) and Pakistan 's Sel:retary of Defense as pres idcrs. urreotly, the DCCi serves as
n primmy forum for exchanging idcns and coord inat ing defense polil'y discu ·sions to
faci litate (;Oopern tion of the bilate ral defense relati onship. The DCG is schedul ed to meet
annually; however, it bas not met since May 2006 because ofa series of po liti ·al and
sec urity de elopmcnts. including th e November 2007 imposition of a State of Emergenc y
in Paki stan.

( U ) The joint statement follow ing the 2006 meeting stated that the DCG meeting was n
strategic discuss ion about the U.S .-Pakistan long-term strategic relati onship, during
\-V hich the two sides exchanged views about the importance uf the re l n tion ~ hip and how
they could bui ld upon an a )r~.;ady robust defense partnershi p to ensure that it continues to
grow st ronger. The DCG also disc ussed counterterrorism st rategies along the Pakistan
border but has not disc ussed CSF.

( U) According to the De fense Securi ty Cooperati on Agency Desk Officer for Paki sta n,
the DCG also bas three wo rking groups that are bilateral and meet semi-annua lly. These
three wo rki ng gro ups are:

   •   Mi litmy Consultative Comm ittee,

   •   Security Ass istance Working Grou p, and

   •   Counterterrorism/Counterinsurgency Working Group.

( U) We bciieve the DCG meeti ngs rnay be the idea l forum to discuss issues such as CSF
and other bi laternl interests. Weal. o be lieve, however, with so many press ing issues
betwee n the United States and the Govemmcnt of Paki stan when we arc fi ghting as allies

                                            - 70-
                                          gECRET
                                                                8ECRET


     in the war on icrror, that the DCG or some more appropriate mel:bmtism shou ld meet
     more than nee a year, periodically as ~onditions warrant.


     Challenges of Planning and the Importance of High
     Level U.S. Commitment
              CENTCOM (b)(1), 1 4(a), (g) JS (b)(1)

    CENTCOM (b)(1), 1 4(a), (g), JS (b)(1)




          CENTCOM (b)(1), 1 4(a), (g), JS (b)(1)

C6NTCOM (b)(1), 1 4(a), (g), JS (b)(1)                                                              -



-         -            -   -   -   -   -   -    -     ---   -- ---- - - - - - -           - ---- -- -
                                                             - - - - - - - -      - - - - - - - - -
~--       - - - - - - - - - - - - - - - - - - - -------- - -- - - --- - - -




                                                                 - 71 -
                                                               SECREl'
                                        5ECRE1'




Recommendations, Management Comments, and Our
Response (UJ

J.l . (U) We recommend that the Secretary of Defense direct the establishment of a
Program Office with the responsibility to oversee the DoD programs in Pakistan to
ensure that these programs are meeting the U.S. national security goals. We further
recommend that this office work with a similar office for Afghanistan to ensure that the
U.S. investtnent in the region is working &Sa unity of effort to achieve common overall
goals.

Management Comments




                                        - 72-
                                       SECR£T
                                           SEC RET




Our Response
     CENTCOM (b)(1), 1 4(a), (d)




J.2 (U) We recommend that the Under Secretary of Defense for Policy as the Chair of
the Defense Consultative Group:

    a. Meet on a regular basis and conduct meetings at least twice per year~ and more if
    re ·tuired

    b. Discuss the Coalition Support fund as an agenda item at each meeting when
    apJpropriate.

Management Comments

(LJ) I~ ESPONSE J .2.a: Do D partiall y concurred. Th y stated that USD(P) is commi tted
rna long- te1111 relatio nship between the U.S . and Pak istan hased on mutua l tru st and
comm on interests. Although the Defense Co nsultative Group (DCG) is one ve hi cle to
build upon this relat ionshi p, i t is onl y one of many ongo ing efforts to ma intain and grow
relations between the U.S. and Pakistan . While limited tim e and resources, as we ll as
geopo l iti cal circ umstances both in the U.S. and in Pakistan, constra in the frequency with
which these meetings c~n occur, USD(P) is comm itted to regu lar meetings of the DCG.

(U) RESPONSE J.l .b: DoD partially <.:om:urred. They stated that lh ..: agenda for a
given DCG should be dictated by the topics that arc most relevant to DoD and most
app ropriate for resolution via the USD(P). When Coa lit inn Support f unds is a topic
warranting DCG disc ussion. DoD concurs that it shou ld be placed on the ugcncln. But to
pia '\: it on the agenda as a requirement is not an appropriate presumption lor the DCG.




                                             - 73-
                                          S~C~T
                                        SECRET




Our Response

(U) DoD comments are responsive to the intent of the recommendations. Oased on DoD
comments, we amendl;!d our recommendation J.2.b and added when appropriate. No
additional actions or comments are required.


1.3. (U) We recommend that the Commander, U.S. Central Command:

       a. Establish au operational program manager for tl1e DoD programs in
       Pakistan including the Coalition Support Funds claims by Pakistan. This program
       manager should have the overall responsibility to oversee the management and
       operations to ensure that the goals of the United States and DoD are being
       achieved. This program manager should also be responsible for developing the
       policies that will assist with having a consistent operation of tbe program, develop
       a budget for future expected reimbursements to Pakistan. as well as, creating a
       funding plan for aJJ the DoD programs in Pakistan, and ensure that the Office of
       Defense Representative Pakistan bas enough personnel to run this critical mission.
       and that they are well trained and updated on all program matters.

Management Comments
(U) USCENTCOM concurred with recommendation J3.a. USCENTCOM recommends
SAO pro tide oversight of Coalition Support Funds with a "cost based model."
USCENTCOM is currently prepruing travel to Pakistan to establish the model and
propose the way ahead to reduce paperwork requirements, while ensuring that U.S. goa ls
and objectives are mel. The program manager, residing in the Office of Defense
Representative to Pakistan will ensure greatt:r situational awareness of ongoing Pakistan
Military Operations in and along the western border.

Our Response

(U) USCENTCOM l:omments were responsive to the intent of the recommendations.
and no additiona l comments are requir "'d.




                                          - 74 -
                                       SECRE'f'
                                         5ECRET




Apptendix A. Scope, Methodology and
Acr~onyms (U)

(U) w~~ conducted this assessment from April 15, 2008, through January 30, 2009, and
visited sites in Pakistan ti·orn April I H, 2008, through Apri l 26, 20tH( We plunned and
perfonned the assessment to obtain sutiicicnt and appropriate evidence to provide a
reason ·tble basis for our observations ·md conclusions ba. ed on our assessment
objectives. We believe that the evidence obtained provides a reasonable basis for our
recommendations based on our assessment objettives.

( U) Wc reviewed documents sut:h as Federal laws and regulations. including the
National Defense Authoriu11ion Act, National Defense Appropriations Act, Emergen<.:y
Supplemental , Bridge Supp lemental , Fi nancial Management Regulnl"ion, and the Security
Assistance Management M:mual. In addition. we evaluated the adeq uacy of the
USD( ")/CFO guidance and processes for eva lu ating requests to r~imbmse Coa lition
Support Funds to the Govemment of Pakistan.

(U) We also interviewed key managers and appropriate stuff responsible lor the
manag,~mcnt.  oversight, and execution ofthe reviewed programs. Our interviews
included discussions on the adequacy of the:

   •   processes and procedures used m reimburse Coalition Support Funds to the
       Government of Pak istan,

   •   accountability and t:ontrol of sensitive items provided to the Frontier Corps of
       Pakistan, and

   •   use of training and equipment funding.

(U) We intervi ewed personnel in the following organizations:

   •   Office of Management and Budget

   •   U.S. Department uf State

   •   U.S. Embassy t··lamabad

   •   Under Secretary of Defense (Comptrolkr)/Chief Fina ncial Officer

   •   Under Secretary of Defense for Policy



                                        - 75 •
                                       SECilET
                                       SECitE'f


•   Department of Defense Office of the General Counsel

•   Office of the Assistant Secretary of Defense-Legislative A m1irs

•   Joint Chiefs of Staff

•   US Central Command

•   Office of the Defense Representative Pakistan

•   U.S. Joint Forces Command

•   Defense Security   ~ noperation   Agency




                                        - 76-
                                      5iECRET
                                        §ECRET

(U) Scope Limitations. We limit ed our rev iew   10   DoD runclcd progrnms supporting the
Government of Paki stan.

(U) Use of Computer-Processed L>ata. The OUSD(C)/CFO obtained data from the
Department's Contingency Operation Support Tool model for use in validating whether
the costs in the Paki stan claims were reasonable . \Ve evaluated the assessments made by
the USD(C)/CFO using the data from the model, but. w~.: did not test the accuracy or
currency of the data .

(U) Use of Technical Assistance. We did not usc Technical Assistance to perform this
assessment.

(U) A(:ronyms Used in this Report The following is a list of I he acronyms used in this
report.

CN                           Cour1 temarcotics
COIN                         C Olllllerinsurgency
CSF                          Coa lition Support founds
CTFP                         Combating Tcnorism Fellowship Program
DCO                          Defense Consultative Group
DoS                          Department of State
DSCA                         Defense Security Cooperarion Agency
EUM                          End-use Monitoring
FAT/\                        federally Admini stered Tribal Areas
FMf                          Foreign Military financing
FMS                          Foreign Mil itary Sa les
GAO                          Government Accountability Office
GoP                          Government of Pakistan
OW T                         Global War on Terror
ISA F                        lntcmational Securi ty Assistance Force
NOAA                         National Defense Authorization Act
ODRP                         Office of De fense Representative Pakistan
OEF                          Operation Endurin ' Freedom
SOP                          Security Development Plan
USCENTCOM                    United States Cenrral Command
USD (C)/CFO                  Under Secretary of Defense (Comptrollcr)!Chief    F inan ci~ll
                             Officer
USD ( P)                     Under Secretary of Defense for Policy




                                         - 77 -
                                       SEC :RET
                                        SBCR-ET




Appendix B. Summary of Prior Coverage (U)
(U) During the last 5 years. the ovemment Accountabi li ty Office (GAO) and the
Department of Defense Inspector General (DoD IG) have issu ed I0 reports discussing
U.S. efforts in Pakistan. Unrestrided GAO reports can be accessed over the lntemel at
http: //www.gao.gov . Unrestricted DoD IG reports can be accessed at
bttp://www .dod ig.mi IJauJ i !/reports.

GAO (U)

(U) GA0-08-932T, '·COMBATING TERRORJSM: U.S . Oversight of Pak istan
Reimbursement Claims for Coalition Support Funds," June 24, 2008

(U) GA0-08-875T, "COMBATING TERROR ISM: Guidance for Stute Department's
Antit·errorism Assistance Program Is Limited and StateD es ot Systematically As. ess
Outcomes," June 4, 2008

(U) GAO-OR-R30R, ''DEFENSE MANAGEMENT: Assessment of the Reorgnnization of
the Office of the Under S e ~.;re tary of Defense for Policy," May 30, 200H

(U) GA0-08-820T, '·COMBATING TERRORISM: U.S . Efforts to Address the
Terrorist Threat in Pakistan's Federally Administered Tribal Areas Require a
Comprehensive Plan and Continued Ov~;rsight," May 20, 2008

( U) GA0-0~-806, ''COMBATING TERRORISM: Increased Overs ight and
Ac<.:ountab ility Needed over Pakistan Reimbursement !aims f r Coalitio11 Support
Funds," June 24, 2008

(U) GA0-08-735R, " Usc and Oversight of Coalition Support f·u nds ··May 6, 2008

(U) GAO-OH-o22, "COMBATING TERRORISM: "The United States Lacks
Comprehensive Plan to Destroy the Terrorist Threat and Close the Salt: I Iaven in
Pakistan's F dera ll y Admjnistcre I Tribal Areas," Apri l 17, 200X

(U) GA0-07-827T. "S tabilizing and Rebu ilding Iraq: Coalition Support and
lntemational Donor Commitment : ·May 9, 2007

(U) GA0-07-4 16R, "Section 1206 Assistance,'' February 28, 2007




                                          - 78 -
                                       NECRET
                                         SECRET




DoD IG (U)
(U} DoD I Secret Report No. D-2004-045. "Financial Manag\!ment: Rt:port on the
CoaUtion Support Funds,'· January 16, 2004                                  '

(U ) DOD IG Secret Report No. SP0-200H-00 I. ''Assessment of the Accountability of
Arms and Ammunition Provided to th t: Securit y Forces of lmq ,'' July 3, 20013




                                          - 79-
                                        SECRET
                                                                                       SECRET


Appendix C. Validation Process for CSF
Reimbursement (U)
               c;oP semb claim f(lr                                         U.S. Emnassy ,·alidalc. suppPrling
                  rcimburs.·mcnr                                            docurnc·nrmion filr lhl! GoP daim




                                                                                                                        NO




                                                              NO



                                                             O LI SD (C')   pr~ p~ rcs and di srriburcs coordinaliDn packag..:




        llMB                                         DnS                DoD               OUSD                 OUS D (C)              fl r: t'l!o ol , \ ,•l t•ll /l:.trl!o!
                                                                                                                                   .Jnol l 1 11,1/tl~ l' t oh .:~ unJ
       reviews                                     reviews             OGC               (Polkv)              llAA Office                           \ !hll)"'l i.!o
                                                                                                                                   H ll""i HP I                   n,l l oVJg~"f
         claim                                      clai m            reviews            re vh: ws               reviews           1.. \,)\'<" ll l' t l l:", l     ,•2t"'lff'' l
                                                                       claim              cl aim                  d aim


Acru mrn \ :
• H •\ J\ Oudgc1 &
              \ r p r ~·rri ar t~•tl,     Atr.m ..

•   1 111'.\ l· l ll i:~ - IJ,· r"' l
          Sl' l ld :tl)' of I k fc n ~ a:

•   u r .\ S      Dcf.:nt..: F111.1111.. t' ,m,t
          ' &:•"~ nna mg s"·nt ~..

•   J)ull OUt' -             Dt' p.:U HII ~oll l t 1 1
          IJc l~· n'~       O tfkl! t•l ( it·ncrJI                            DEPSECD EF reviews claim
         t ·,,1HIM: I




•   f} S( ,\         IUI~Tl 't.c! ~( ( 0111 \
         (. ~ll'J'Cn. l io n        1\ !!~11 q


•   l ttl!'      (.i {l \'~ fn lll i! l ! l •\I
                                                                                Conj!ress r~.:vkws claim
         l'u!l, t, IJII

• <l\ l h -Oul ~c t•f
       ' 1,\n,,~cm cnt on1l Hu.trd


•   o r · ~ n W I Oiliu· " ' '''"
         Ll nJ L'I Sl:O L'I.! I ) tl l
         ll(te n :;~ lC'tllllft l•ul krJ


•   <11 '\I) t Polrql---flfllu • nf lh(
         I 'lhkr s ~ c r.: lllt") Ill
         l id !: fh~       1\-.-r p,,JH:}
                                                                                                                                        ti nP
•   I • S(' f · N TCO~ I              I 'J11I<Jl                                                                                 rLI I11hllro;;:d
         '\t tft".., C'cmra.l         Cl!ll t •t.J IHI
                                               SEC RET


(U) This is the process that· was being followed during our assessment.

(U) Gnvcrnmen t of Pakistan. The Govemment or Pakistan through its Del'e nse
Ministry Department submits its request fhr reimbursement to the Office of t·he Defense
R e pre s ·~ ntativc to Pakistan at the U.S . Embassy Islamabad and includes:


    •   services or missions performed, by whom , and mission objectives,

    •   types of costs incurred and a discussion of how cost s were computed,

    •   spreadsheets of cost clement and costs incurred by Paki stan in support of the
        military operation, and

    •   copies of invoices.

(U) U..S. Embassy Islamabad. The Offi c~ of the Defense Representative to Pakistnn a t
the U. S. Embassy Islamabad r~v icws Pakistan 's requests fo r reimbursement. gets
c.:larification or additional infommtion from Pakistan as required, and forward s the reques t
with the Embassy's endorsement to tbe US ENT OM and USD( C)/CFO. The U.S.
Embassy Islamabad sends Pakistn n 's reimb ursement claim tu SCENTCOM lo r their
validation. In addition. the Embassy sends a cabl e or other type of c ummuni ~:ation such
as a me morandum, to the:

    •   Secretary o f State, nnd
    •   Se~.:re tary   of Defe nse.

( U) In addi tion , U.S. Embassy Islamabad also send s an info rmation cable or another type
of communi cation to the:

    •   American Consulate in Karal: hi.
    •   American         onsulate in Lahore,
    •   American Consu late in Pcsha\lvar,
    •   USCENT OM Intell igence Ofti cc in MacD ill Air Force        B~sc   in Florida,
   •    Commander in        Chief ~   USCENTCOM in MacDill Air 1-'orce Base in Florida.
   •    .! oint Staff, and the
   •    Central Intelligenl:C Agency.

(U) Further, besides the above main redp ients, the inlormatinn cable or another rorn1 of
c mmunication is sent to more than I00 rcdpienls.


                                                 -~l -
                                               SECR-ET
                                           SECIU:l'f'


( U) USCENTCOM. USCENTCO M validates requests for reimbursement from
Pak istan. USCENTCOM should obtain detailed documentation that sufficiently supports
the reimbursement request, and then forward s the intom1ation to the office of th e
USD(C)/CFO. T he tollowing information should be included in the documentation
provided to the USD(C)/CFO:

    •   identification of who requested the service and for what period of time,

    •   validation that the support or service was rrnvided,

    •   narrati ve descripti on of tbe types of costs incurred and descriptions of how th e
        costs for eat:h were computed, and

    •   copies of in voices tor the support provided.

(U) ln addition, the Joint Staff Force Structure, Resources, and Assess ment Directorate.
(CCJ-8) coordi nates w ith the Joi nt Staff Operations Directorate (CCJ-3) and the Joint
Staff Plans Directorate (CCJ -5) at USCENTCOM, prior to the CC.I-1:: sendinu the
documentatio n to the US D(C )/CFO.

(U) USD(C)/CFO. The USD(C)/C FO is responsibl e for eva luating the claim and
dctem1ining that the reimbursement is reasonable and cred ib le. ln addition the
US D(C)/CFO must also fult111 its fi duciary obligation of ensuring that claim::; for
reimbursements of costs in curred are reasonable before it authorizes payment. Prior to
payment. the USD(C)/CFO should analyze the claim for reasonableness by:

   •    comparing, at a mucro leve l, costs clai med by Pakistan to the   .S. costs LhCJt
        wou ld be required:

   •    evaluati11g the reasonableness of the individual categories of wsts for which th'
        reimbursement is reques ted :

   •    comparing rcpresentrttive U.S. costs for a sub-set of items (where similar
        comparisons can be made); and if appl icablc;

   •    assessing that th e claimed costs arc consistent with previous costs claimed.

(U) In addi tion, the USD( ')/CFO coordinal sa package wit h the DoS : Office of
Management and Budget , USD( P), DoD Legislative Affairs; Director, Budgets and
Appropriat ions Affairs; and the DoD Ofticc of General Counsel. The package inc ludes
the fo llowing doc uments:

   •    memorandum to the Deputy Secreta ry of Defe nse.
   •    congressional noti fi cation s nfthe Pakistan claim,

                                            - 82 -
                                          5EC1l£'f'
                                         SECRET

    •   USCENTCOM valillation of' claim and the
    •   Comptroller eva luation of the clnim.


(U) Bll!dgct and Appropriations Affairs. The Budget and Appropriation Afl1lirs Office
reviews the Pakistan claims by eva luating the reasonableness of the costs based on the
USD(C)/Cf'O guidance, assessing the level of congressional interest, and veri lYing that
the noli fications of the claims arc addressed to the appropriate congressional committees.

(U) Director, Accounting and Finance Policy and Analysis. The USD(C)/ FO
discontinued coordination with the Director, Acl:ounting and Finance Pl licy and
Analysis USD(C)ICFO in September 200n.

(U) DoD Office of General Counsel. The DoD Office ofGencral Counsel rev iews
what' .. being claimed, compares it again st the Comptroll er guidnnce, reviews t·he
numhers for accuracy against the claim, and contacts USD(C)/C FO on any co::; ls that
appear to deviate from the guidance.

( U) 01ie'partment of State. Department of State reviews reliell mostly on the DoD
review and validat ion.

(U) Office of Management :md Budget. Oftlce of Management and Budget (OMB)
reviews the Pakistan claims to identify any trenlls that look problcmatiL: and f llows up
with USO( C)/CFO for clarification , if needed. MB's rio! view and va lidation processes
include eva luat ions by its intemational assista nce and intc lligen~e activities. Upon
compf(!tion of its review and validfllion processes, OMB forwnn.Js its approvnl or
disapproval to the USD(C)/CFO.

(U) USD(P). The USD(P) verities that the Paki stan claim is consistent with U.S. foreie,'ll
policy goals and has no im pact on the balance of power in the region.

(U) Deputy Secretary of Defense. The Deputy Secre tary of De tense rev iews and
approves claims, then sends letters to congressiona l committees for review of the
Pakistan claim.

(U) Congress. Congress has 15 days to implem~nt a congressional hold on the payment.
If they do not issue a hold, USD(C')/CFO ends a funding document to tile OS 'A that
authorizes funds to pay the daims.

( U) Defense Security Cooperation Agency. DSC A rc ·eives the authorization to pay
the claims via a Funding Au thorizntion D cument from the USD(C)/CFO. Next, DS 'A
se nds an Sf I 034, "Publi c Voucher for Purchases Other Than Pct"onat ,·• by t~tx to the
Defense Fi nnnce Accounting Service offict: in lndianarolis.

(U) [)tefensc Finance Accounting Servic<'. The Defense Finance Accounting Service-
Indianapolis then se nds an electronic payment to Pakistan.
                                           - 83-
                                        SECRET
                    SE€1!£T


Appendix D. Pakistan Operations fEt




                     ~84-
                    SECRET
SECRET




  - X5-
SECR-ET
                                                     SECJU5T


Appendix E. Management Comments -tGt
                                                  e~ra   mr:rtfif'IAI.
                               OFF ICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                              2700 0Ef!N5E PEIHAGON
                                            WA SHINGTON DC 20301·2700


   ·~A,N   I PACifiC
  s!Cu~rrv    •FF..,R.5                                                                   HAR J t 700!

               MEMORANDUM FOR INSI'!:. fOR UI:NERAL. UEr1AR'I Ml:N OF
                              Dl.!l·hNSE

               SUBJEC [: D D Jnspc.:hlr Ocn~-rJI R.:port ·'Ass~s nwnt of D1JD· Managed
               Programs in Support ofth Govcmm nr of raki tan (Projcci No. 02008-000UJ
               0 I &4 .000)." dated Januar)' 30, 2009.

                       TI1~: pr(lpt•Sl'd UoD response to the ~ uhjc~:l report i atUlchcd . M · potnt    ~r
               con ta~t tor this mB IIcr is 1•ID•111ffi!l!l . 703-695.        , or e-mail:
              t•ID•lll!iliQ{U:osd . il

                                                      inccrcly,




                                                ~;, s"~""'
                                                     fl:.a:.t Asia~
                                                                                    ufD"'""
                                                    Pcrlomling th · L>ut i c::·· of the As lstum S.:.:r~rary
                                                     ofD efcn .: (A<.illll and Pncitic Sccurit}
                                                     Affairs)

               t\u a..: hru~o:nt :
               As sta t ~d




                                                @8 'J f'I81SPFFt.'tl::.




                                                      - 86-
                                                    513CRE'f'
                                 SECIU~T




                              C~?iFirJFJfff;Jcb


           Dol> Inspector Gcnerul Report - Doled 30 Jiintmry 2009
                    Proj~e t No. 0200R-OOllOIC:-01R4.000


ASSESSMENT OF DOD-MANAGED PROGRAMS IN SUPPORT Of THI!:
               GOVERNMENT OF PAKISTAl'l

            DoD COMMENTS TOTHR RECOMMENDATIONS

(U) RECOMM ENDATION A.!: We re.:ommcnd lhat the S!:'c r.:U.H')' •fDcfc n~c
cn1>urc LltHL the United States ILtnnally communicllt cs to Lhc Government of
Pakistan (G P) it expectations about type~ of opcmtions and rc ults 11nd
transparency 1{1 vu liurue cl:aims for 'o, lition upport Funds reimbursement.




                              eBNrttn:.n lxL




                                  - 87-
                                SECIU£'1'
                                                    SECR'RT




                                                E8NFIIt9flil.'•l•

         CENTCOM (b)(1), 1 4(a), (d)

 CENTCOM (b)(1), 1 4(a), (d)




                 CENTCOM (b)(1), 1 4(a), (d)
      •    CENTCOM (b)(1), 1 4(a), (d)




      CENTCOM (b)(1), 1 4(a) (d)
CE~OM        (b)(1), 1 4(a), (d)




 (U) RECOMMENDATION A.2.11: lmpro\e tbc process and                    redu~:e   tho:: timet
 reimburse the •oJ' for servic!.'~ rendered.
                                    CENTCOM (b)(1), 1 4(a), (d), (g)

CENTCOM(bj(1 j:T4(a}:(d)~ (g)



       CENTCOM (b)(1 ), 1 4(a). (d), (g)



     .     ~)
                 CENTCOM (b)(1), 1 4(a), (d), (g)



     •

                                               t'eNFJIII!i>'.l' Is
                                                      2




                                                     - !.<8 -
                                                 SECRE'f
                                             f''8:'ifi 8ENTI :'415

              CENTCOM (b)(1), 1 4(a), (d)


              CENTCOM (b)(1), 1 4(a), (d)



   •          CENTCOM (b)(1), 1 4(a), (d)
       CENTCOM (b)(1), 1 4(a), (d)




   • -t'!"l   CENTCOM (b)(1 ), 1 4(a), (d)


              CENTCOM (b)(1), 1 4(a), (d)




(U) RF:COMMENnATION A.l.b: Improve meDoD t!Uidancc I ll cl;u ify Wh;£1
 oll5titutcs a valid claim fro r11 both opcrati nnl and linunclaljustlficntions. n11s
guiclan c o..houfd abo an •wc-r the ro ll n~\ ing que tinn           t




(U) RECOMMENDATION A.2.b(J}: What I~ the DoD defi nition of
incremental cos! for Pakistan?




                                                     3




                                                - 89 -
                                              SF.CRHF
                                          SECRET




  (ll) RF.COMMENDA ION A.2.bl2): Claril) by forma l do 'UIIIenMion thnl
  Coalilion Support Fund.~ can no t be ustd to ~pl3cc or repair cquipmt:nt lost Ctt
  damaged ns n n:suh of com hat operoti ns.

  (lJ} RESPONSE ,\.2,b(2): 'n1c lcgishllion app ropriating          SF docs not prohibit
  replacing or repairing cqu ipmcm lost <'r dam ugcd in combat op ntions. A~ a
  mntter of policy. DoD prioritizes CSF to rcimhurse typical operat ion and
  maintcnance·typc xpcn~>e s and recommend; coumri ~ fi rst consider using For-c i~
  Mi litary F in:~ncin g to rep lace equipment . Hl)WC\'cr, r> f) prefer 1 retain the
  ll ~:xi llilit y provided by law to usc CSF in t.hc munm•r necc~sary to achieve thr
  greatest success in upcr.u icm~. Such use may r~: 4uire replacing ct.juipm.:nt that is
  lost or damllg«! in comnat operations.

  (lJ) RECOMMENDATION A.2.b.CJl: Identi fy altcmo ti\'c funding that cou ld
  be used for this purpo. e tc1 be consisti.'nt in rcimbunting incrcmentul costs as
  defmed by DoD rinancii!.l Managr rnenl Regul tion Volume 12. ' hapter 23,
  Section 23 9 (K) d<Jt~'<l . cplc:mb\.T 2 07. incrcmcntnl ~:o~rs include repl acc rncnl
   O!>l.s of &llrition los es direct!}' lllltibuiUble 10 ) UppOft of the Op •mti on.
   -                             CENTCOM (b)(1), 1 4(a), (d)
CENTCOM (b)(1), 1 4(a), (d)




 ( I) RE OMME.NDATION C: We r ommcnd th atth~ Unde r Secretary of
  Defense for Polley :

 (lJ) RECOMMENDATION C.l: L..:od an interagency etlori ro p ri oritt7.~: U.S.
 coopemtion with Pakistan and ensure that lhe resu lting roreign Military financing
 (1-'MF)IF reign Milit ary Snlc,. (FMS process and iden tified progrnm~ being
 supponcd are adequately funded i111d locus on common U.S. and Pllkistan
 clhjecti VC<,

 (IJJ RES PONS t C. I: P<Jrt iully con ur. The m:w ad111inistrmion i conducting, on
 interngcncy rcvi w of it5 overall stratcgy for Afghan istan and Pakl llln, which wi ll
 Include .:oup.:ratton with 1-'a.lu~IJ.\n . DoU agrt"~ that the U.S. should priori111.c U.S
 Security coopcrruinn with Paki'!lan to ensure thotthc FMf and rMS proecss arc
 su ppon ctl, adequately funded . nnd focus on common U.S.-Paklstani objectives.
 Uowcver.lhe Th:partmcnl ofSwte, not DoD, has tl1e overall lead for Sc.:urily
 Cooperat ion and interagency coordination on the dmin isrnuion of the f'J\tlf ·MS
 programs. DoD work.:> closely with the Depanment of S t at~ an1 I U.S . Emhn.~sy
 b lamabud o the U.S. lllld Pai.Ltan \ wL. toget11cr to identify and prioritize limdu1 g
 needs and progrtlm objecth·cs.

                                    t:8r4Fittf.Nl'l;l:lo;
                                             4




                                            . 90-
                                        SECRET
                                                       SEC RET




   ,.,_                                                CENTCOM (b)(1), 1 4(a), (d)
 CENT COM (b)(1 ), 1 4(a), (d)




   ( lJ) RJO:SPON SE C.2:                oncur .
   • ;:: 1    I ~ ~~       ~     I •       t   ~       CENT COM (b)(1 ). 1 4(a), (d)
 CENTCOM (b)(1), 1 4(a), (d)




                     ,                 CENTCOM (b)(1), 1 4(a), (d)
   ......
CENTCOM (b)(1), 1 4(a), (d)




   {U )         RESPONSE E: \Vhil c there arc no fcmtal reco mmenda tions rcgnrdin&Lhc
   C1 mbatlng T~rrori s m Fell ow hi p Prugrum ( 'D'I'), DoD nutk4.:s lhe fo llowing
  comments for DoD IG information and clarity.

            •    (ll ) CIT I' g nls include huilding strntegics, mstitut ional capficity and
                 pwtnerShips, and 1:1rc focusc:d eihovc the ta tic:;tl and operntionallevcl:..
                 Wh ile some opemtionalLraining i. provided. it ts notu fOClli or the
                 program .

            •    (! I) Tht rcpoc1 ' s sug "estion that "CTF P should b a Vllluablc rcs(lur..:e that
                 benefits bolh the       .S. 1111d Pakistan     i11   !be light against terrorism." is
                 c rrcct. but prnhahly less imponant in the tactie<tl/opcrntional co ntnt m
                 which the n:port cas Ls its liSsessmcnt of Pakistan requir.:m t115.

            • (U) DoD is authorized to usc up to S35M per year lor · l l·P versus the
              S20M per year refer n ~-c in the repon..

        •        (ll} Title I0   .S.C. Sec. 224%, re!Cn:nced in the. repnn . has heen amended
                 by C' ongr~s~

        •        ( l I) fhe !G report undcrsllltcs the 11- P c ntnhulion l Pakistan. While
                 the report note~ an expendi ture ofS765,000 it t CTFP for I'Y 21108, the
                 FY08 report to Congn: s~ nme<~ that C"TrP Pnld!>tan acth1it ics (ll11ountcd In
                 . l.fl79 34


                                                   €8Yif'ltJI:rtT1llcb
                                                            5




                                                       - 91 -
                                                      SBCRE"f
                                            SECRET




                                       e~ . cfiUI!NTIA L



  <U) RECOMMENDATION H.l: We re<:ummend lh t lhc S!!Crtlary f DI:f.:nse.
  in coordination with the Secretary ofState deve lop a longer term fun ding stmtcgy
  to continue the fumling of the Ambas~ u d or' n.~ u est to meet the g1•uls of cuu nter-
  in ~ u rgcn c y doctrine b) fo llowing milhary opemrinns wilh humanrtarin.n aml
  economic development and r.·warding the tri h who light mi litants.




 (U) RECOMMENDATION 1. 1: We n.:commcnd that the Secretary of Dcf.."flsc,
 in coordination with the Sccrclllf)' nf ~ to re:




                a            CENTCOM (b)(1), 1 4(a), (d)
  lo.B   ..     "·    -
CENTCOM (b)(1), 14(a), (d)




 (U) RE       MMENPATIO,N l.l.b: (ll) Request dutlwn a liun frum C un t~res~ tu
 tWT}' ovt:r unobllguted fund" from li ·a I }'car ~n li ~.:al year or r"quust tltat funds
 provided by Congress in support ofthr Security Dc"elopment Plan be no-y r
 funds.



                                      €A~ifi61'!N'f1Jitt
                                                 6




                                              - 92-
                                          8~~ ER£'F
                                              5ECIU~'f'




                                          E8Nfi8EJi'fiAL


(U) RESPONSEI,I.b: Par1inll . com:ur DoD Js Ct•nsldcring n: tu~: s tin g a
dedicated funding nuthority 10 build Pakistan ' counterinsurgency cnpnbilhy 33
pan of the PY 2009 Supplem<'ntal War Request. Su.:h rcqut:st w uld b~ desig.ned
111 allow adequate time to obligate the funds so there would not be o need for Ot)-
yenr funding. DoD wi ll comhlcr rcqu ting ltllthnriz."inn frc un Con.;rc'~ to corry
over unobligated funds fr m liscul year-to-fiscal ye.ar or that the fund.-. provided ho,;
de ignnted no-year funds ifndtlitional ilexibility is required in futur httdgct
requests.

(U) HECOMMio:NOATION l.l.c: Create a Security Development f'lnn
npemtional pro~:~ram l•f recMd thllt incluJc. budgeting in the Future V ar~ Defensr
PI:m.

(U) RESPONSE       J.l.c: 1m..:ur. 1\s mcntinn~:d in t11e. c..:rctar)' of lJt:fo:n c
nntilll'~llion
             In Congress, DoD is considering r ·questing u dcdicah:d liJnding
authority to build Pnkistnn's c unterinswgency capability us pan of the Y 2009
Supplemental War Requcs1. DoD is also examining options for longer term
pfunning and hudgcting for ~liCfl II Ji rngTtl111 .

(U) RECOMMENDATION I.J.d: Estahlish o long-term Forei~n t-·1ilitnry
Hnancing or other funding riM thnt identific the rcsou cs needed to ensure
su tainment of the eclion 1206 equipment and programs, Foreign Milit~· Sales
l.'d ~t::.. oiiiU r o:-~IIUI\.:1:~ I yuia ~~::u rill C.\~ulill~ '"'. 't:t.:Uaily DcH:IIIj.JJII Ill rlmL

(U) RESPONSE I.J.d : Concur. As mentioned in the Secretary ufDefi:nsc
notification to C ngress, DoD is considerin g requesting dedicated funding
authority to bui ld P kistan 's counterinsur~cn ycap bility us part ofthe rv :2009
Supplemental Wnr Request . 'nlat nuchority would im:ludc suflicknt lh:xihality to
provide the C'omhntant Commander and hi s r presenuuivc in lslnm!lhod the tool~
nc essary to improve the counterinsurgency cnpi.lbili ttc uJ' P:tki.tan·~ n·.:urit)'
~   n: ·~ .

(U) RECOMMENDATION 1.2: We recommend that the Defense: Security
Coopcruti{•n Agency in conrdinarion with th• U.S. Emb11ssy lslamnbad lUlU Oflicc
ofthc Defense Rcpresentati c Pakistan idcntat)· and devote adequate rcs.ourt'eS for
acclluntubility and control and provide sca~nt} for delivery •. 111ruge. and
di tribution ofurgcntl. needed equ ipment to the Pakist n , ccurity r rcc_.

(U) RESPONSE 1.2: Concur witl1 comment. This rc~.:ommenua ti on ~ltould be
r.:vb..~d by rcplucing lhe ph~c "devote tu.l quat.: resourc~ li r accountuhility und
cnntt I und"' wnh the ph~ c "include in the Lellers of Oer and A ccptance-
ch;uges for the costs n.."SociaLcd with accowttabi lity and control and ~these
limd      hl   pny forth articles and servtces necessary to            .. I he new
rec mmendati n wtll read:

                                        F.S Pi F! 8 E?JiR .1:1..
                                                   7




                                              - 93-
                                            5ECIUiT
                                              SECRE'F




         W~ recomm~nd that the Dclell!ie Securit) ·o pennie>n \ge n~:)' in
         C'onrrliuATinn with th<~ I I S lirnh' ~y l ~ l rt m:l~Hd rmrt Olfi r. nf !ht•
         Defense Rcprescmatiw Pakistfln idemif)' ami includ e in the Leners
         of Offer ll!1d Acceptance h'ugts for the cost.s rusodared wi th
         accouniabiliry and control and use Utese fu nds It> pay tor the anides
         and ~ ervic us ncces ary to provide securi ry lor deli very, stomge, and
         distribution of urgently needed ~quipmcnt to the Pilk istan Security
         1-urc~::s .

( U) RECOMMENDATION J.l: We r«:ommend tht~ t the Sccn:tary of Defense
J ina:t the c:.>labli,!,hmenr of a Pr gram Office with the r -punsihility to o\'Cn.t:.: the
UoD progrruns in Pakistan to ensuro: that these programs are meeting the U.S.
nutional sccuril)' goals. We further n:t:ommend that t11is office work with a similar
office for Afghani 't<JO to cnsme that the U.S. invcsunctll in the region is w rking
ru; a unit y ofeftort _to ncliicvc common ov~ rall goals.




     As one element of U.S . support to f'aki sum, DoD i ~ propos ing w e~tab li ~ h a
( lJ )
dedicated li.md.ing authority to bujld Pakistan 's counterinsurgency capability as
part of the 1- Y 2(1(1Y Supplemental Wur Rl..'(juest. In an cff(l!'l to en ure that this
uuthority h;.b the appropriate organi:.t.ational struc-ture to ~upport the anticipated
incre~ in activity. fund ing and urgen~y. DoD is working to eswbll h u
management structure that wlll :
              CENTCOM (b)(1), 1 4(a). (d)
     ·~
     . ("'    CENTCOM (b)(1), 1 4(a), (d)



     •

(Ul RECOMMENDATION J.2: We r~ommend lh.ut the Undl.!r Secretary of
Defense tor Poli y as the Chair of the Defetn: Consultative Group:

(U) RECO MMENDATION J.2.al Meet on n regullu bas is and conduct
meetings ut least twice per )'l'Ur: Wld rnorc if req uired.

                                            F9i'ifii8KNRH
                                                  8




                                                - 94 -
                                             SI!C:ttt"f
(U) llESPONSE .l.,l.a: Partially concur. USD{P) Is comrn itled 10 a l11ng·tcnn
relatiml\hlJl ~h\ een the U.S. and P.aki.tun based n mu1ual tnbt 1111d omm n
interest . Alth ugh the Defense Comu llative Group DCO) i. one vehide to build
upon this relati onshi p, it is un ly nne ufmnny ongoing efforts 10 mBimain ami grow
rc lat i<ms between the U.S. und Pa.kistan . While lirnilcd tim e and r~:Snurccs , us well
as geopolitical ircumstances both in the: U.S. WJd in PukisUln; eormrain th~:
ircqw.:ncy with which these ml-etings can ccur, LJSO(P) is committed to regular
mcclings or the DC'G.
(U) RF.COMMf.NDATION .1.2.b: (ll) Discuss the Coalition Supporl hmd as
an agenda item at each meeting.

(Ul RI'~S r•ONSt: J.2.b: Par1uJIIy concur. l he ugc.:ndu!Or a given DCu slwu ld n(·
dictarcd hy Lhe lnpics that arc mo~t relevant t DoD und mustappr priute tor
resolulion via the USO(P). When Coali1Jon Support Funds is otopic warranting
DCG dis~:ussion, DoD con~' U that it ~hou ld be pla~ed on the agenda. Uut to
place il on the agtmda as u rc4u ircmcnt is nul an appropria11.: pu!sumptiun for th.:
DCO .




                                  Ettfifl8E~ ' ;Fb*   Is
                                           9




                                         - 95-
                                     SECit:fiT
                                               SECRET




                                          THii .JOINT ITAFY'
                                            W.UHINOTON, DC




•   Reply ZIP Code:
    20318-0300
                                                                        DJSM 30095-0 9
                                                                        16 March 2009


    MEMORANDUM FOR THE PRINCIPAL DEPUTY INSPECTOR GENERAL

    Subject: Assessment of DOD-Managed Programs in Support of Lhe
             Government of Pakistan (Project No. D200B-DOOOIG-0 184 .00} (!J I



I. Thank you for the opportunity to rev iew and comme nt on U1 s ubject
assessment report dated 30 January 2009.

2 . Enclosure A is the coordinated OSD (PI a.nd Joint Stuff response to repor t
recommendations.

3. Enclosure B is USCENTCOM's response to report omments and
recommendations Uuu are specific to the Command .
                                                    JS (b)(6)
4. The J oint Staff poiliinit~oi
                              ficojjjnltaiiclt is
USMCR· J-5/ CASA;!lflj)!@



                                                     :5~ ~ d44/c/
                                                     STANLEY A. MCCHRYSTAL
                                                     Lieutenant General, USA
                                                     Direc tor , Joint Sta.IT

Enclosul'f!s




                                                    - 96 -
                                             :'jf!:CKE'f
                                         SECK£l'




                                      e!8PiPIIU!tJ'fli'm

                DoD Inspector Genera l Report- Dated 30 Jaauary %009
                              Projrct No. D2008-DOOOIG~184.000

  ASSESSMENT OF DOD-MANAGED PROGRAMS IN SlJProRT OF THE
                 GOVERNMENT OF PAKISTAN

                 DoD CO.i\IMENTS TO THE R£COMME:NDATJONS




      CENTCOM (b)(1), 1 4(a), (d)
CENTCOM (b)(1), 1 4(a), (d)




                                          - 97 -
                                       ~ECRET
                                                   5iECRiff




                                                @8Nfi81!:Pif'IAis




          CENTCOM (b)(1), 1 4(a), (d)

  """''
CENTCOM (b)(1), 1 4(a), (d)




  (li) RECOMMENDATION A.2: We recommend that the Under Secretary of
  Defenst: (CompLroller)/ChiefFinancial Officer. in coordination with Under
  Sccretwy of De fen ·c (Policy :

 (U) BECOMMENDATION A.2.a: Improve the process and reduce the time 10
 reimburse !he CloP for services rendered.
  -· •  • •                       .     CENTCOM (b)(1), 1 4(a), (d)
CENTCOM(b)(1 ), 1 4(a), (d)




      CENTCOM (b)(1), 1 4(a), (d)

CENTCOM (b)(1), 1 4(a), (d)




                                               @8" ftlt 1!. 4"'*1:;           2




                                                      - 98 -
                                                  SECRET
(U) R£COMMl:NDATION A·l.b: Improve the DoD guidance to darifY what
constitutes a valid c;;laim from both operational and financial justificntions. This
guidWJce should aJso answer lhe following questions.




(U) RECOMMENDATION A.2.b(l): What is the DoD definition of
incremental cost for Pakistan?




(U) RECOMMENQATION A.2.b£2): Clarify by fom1al documentation thai
Coalition Suppurt Funds can not be used to replace or repair equipment lost or
damuged as a result of combat operation .
(U} RESPONSE A.l.b(2): The legislation appropriating CSF doc not prohibit
replacement or repair of equipment lost or damogcd in combat operations. A.q a
matter of policy, DoD prioritizes CSF to relmbur.;e rypic.al operation and
maintenance-type expenses and recommends countries fmt consider using Foreig11
Militar)• Financing to reploce equipment However, DoD prefers to retain the
tlexibilily provided by law 10 usc: CSF in lh~: manner neeued to achieve lhe
greatest S\lCcess in operations. Such use may require replacement of equipment
lhBl is lost or damaged in combat openllions on 811 exceptional basis .




                                      . 99 -
                                   SJ:CRET
                                                    5iECIUYf




                                                 e8rnt8eFittAt.

  (U) RECOMMENDATION A.2.b.{3): IdentifY alternative funding that c:ould
  be u~ed for this (lUrpose to be consistent in reimbursing inc:T~menta l co ts liS
  defined by DoD Financial Management Regulat ion Volume 12, Chapter 23,
  Section 2309 (K) dnted Scpu:mber 2007, incremental costs include repluc~:ment
  costs of attrition losses directly attributable to support of the operation.

 C~~koM       (b)( ),  (a), (d)              CENTCOM (b)(1), 1 4(a), (d)
                  1 14




  (U) RECOMMENDATION C: We recommend thnt the Under Secretary of
  Defense for Policy:

  (U) RECOMMt:NDATION C.l: Lt.:ud an inttlragency eiTort to prioritize U.S.
  cooperation with Pakistan and ensure Lhat the resulting ForeillJl Military Financing
  I foreign Militacy Sales process and identified programs being supponed are
  ad~quately funded and focus on common U.S. and Pakistan objectives.

  (lJ) RESPONSE C. I: Partinlly concur. DoD agrees thut tho.: I.S. should
  prioriti;~e .S. Security cooperation with Pakistan to ensure that the Foreign
  Military Financing (FMF) and the Foreign Mililal')' Sales (FMS) process arc
  supported, adequately funded, and focus on common U.S.-Pakista.ni objectives.
  However, the Department< f State, not DoD. has the overall lead for Security
  Coopcrution iUld interagency coordination on the administrali n f the I'MfiFMS
  programs. DoD works closely with the Department of State and U.S. Embassy
  Islamabad as the U.S. and Pakistan work together to identify Md prioritize fi.tnding
  needs and program objectives .
  ....,   ,     I uJ        '"'I •       I          CENTCOM (b)(1), 1 4(a), (d), (g)
CENTCOM (b)(1), 1 4(a), (d), (g)




  (U) RESPONSt: CJ: Concw.
  ~                                     t            CENTCOM (b)(1), 1 4(a). (d), (g)
CENTCOM (b)(1), 1 4(a), (d), (g)




                                     CENTCOM (b)(1), 1 4(a), (d), (g)
 CENTCOM (b)(1), 1 4(a), (d), (g)




                                                E8Piri iJI9PiTis ll'i>                  4




                                                   - I 00 -
                                                  SECR-ET
                                        SECRET




                                      e6FIPIIJ:ISPI¥1wtl

 CENT COM (b)(1 ). 1 4(a), (d), (g)




  (tJ) RECOMMENDATION E: We are not making any recommendations at this
  rime regarding the Combating Terrorism Fellowship Program in Pakistan.
 (U) RESPONSE E: While there I1I'C no formal recommendations regarding the
  Combating Terrorism Fellowship Program (CTFP), DoD makes the following
  comments for DoD 10' information and clarity. First, CTFP goab include
  bui lding strategies, instinuionaJ c.apacity and partnm bips. Md llt(! focused above
  th~ tactical and opcrationall~vels . While some operational training is provided, it
  is not a focus of the progrd!JJ. Second, r.he repor1's suggestion thai "CTI!P should
  be a valuable resource that benefits both the lJ.S. and PakisiM in the light against
  terrorism," is correct, but probably less importllSlt in the tactica Uoperationul
  context in which the report costs its assessment of Pakistan requirements. lbird.
  DoD is authorized to use up to $35 million per yeW' for CTI'P versus the 3120
  million per year referenced in the repon. Fourth, Title 10 U.S.C. Sec. 2249c,
  referenced in the report. has been amended by Congress. Fin11lly, the IG n:p(lrt
  understates the CTFP cilntribution to Pakistan. While the report 110tes nn
  expenditure of$765,000 in CTFP for FY 2008, the FY08 report to Congre!ls notes
  that CU'P Pakistan acti vities amounted 10$1,079.334.
  (U) RECOMMF.NDATION B.l: We recomrnend that the Secretary of Defense,
 in coordination with the Secretary of State develop a longer term funding ~ tratcgy
 to continue the lim ding of the Ambll.!lsador's request to meet the goals of counter-
 insurgency doctrine by following militlll')' operntions \\i th humanitarian and
 economic development and rewarding t11e tribes who fight militants.




 (U) RECOMMENDATION Ll: We n:commend that tl1c Secretary of Defense.
 in coordination with the Secretary of State:
   -                 ~          •         CENTCOM (b)(1), 1 4(a), (d)   -    -   -
CENTCOM (b)(1), 1 4(a), (d)




                                      @8PfFIB~Pi'lilnl:




                                       - I0I -
                                      SECRET
                                   SECftE'f




(U) RECOMMENDATION l.l.b: (U) Request authorization from Congress to
carry over unobligated funds from fiscal year to fiscal year or request !hat funds
provided by Congress in support of the Security Development Plan be no-year
funds.
(U) RESPONSE l.l.b: Non-concur. The Oepanmem is considering requesting 11
dedicuted fundiJ'g authority to build Pakistan 's counterinsurgency capability as
pan of the FY 2009 Supplemental War Request. Such a request would be
designed to allow adequat.e time to obligate the funds so there would not be a need
for no-year funding.
(ll) RECOMMENDA'nON l.l.c: Create a Security De\•clopmcnt Plan
 perotional program of record that includes budgeting in the Fu~ Year.; Defense
Plan.
(lJ) RESPONSE 1.1.c: Concur. As m ntioned in the Secrel.llfy ofnefcnse's
notification to Congress, the Department i considering requesting u dedicated
funding authority to build Pakistan's counterinsurgency pability as p;11t of the
FY 2009 Supplemental War Rcquesl The Depanment is also looking into opt ions
for longer tenn plwming 11nd budgeting for such a program.

(U) SECOMM£NDAIION Ll.d: Establish a long-tenn Foreign Milit.ary
Financing or other funding plllll that identifies the ~urces needed to en ure
sustainment of the Section 1206 equipment 11nd progrnms, Foreign Military Sales
cases, and resources required for executin11 the Security D~:velopment Plun.

(U) RESPONSE I. l.d: Concur. As mentioned in the Secretary of Defense's
notification to Congress, the Department is coruidering requesting a dedicated

                                                                                     6




                                     - I 01 -
                                  SECIUl'f
                                      SECUI£T




                                  E 8 NfllB 131fftwr;


funding au!horlty to build Pakistan's counterinsurgency capability ns pllrt of the
FY 2009 Supplemental Wa.r Request. That authority would include suiJicicnt
fl exibility to provide Lhe Combatant Commander and his represent.ati\'e in
lsla.rnabad !he tools necessary to improve the counterinsurgency capabilities of the
Pakist.un security forces. Tht: PCCF will complement, nol replace, other so urces
of fllllding for Pak istan - including Foreign Military Financing.
(U) RECOMMENDATION 1.2: We r«<nunend that the Defense Security
Cooperation Agency in coordination with !he U.S. Embassy Islamabad and Office
of the Defense Re('lmentatlve Pakistan identify and devote adequate resources for
accountability nnd c-ontrol und provide security for delivery, storage, and
distribution of urgently needed equipment to the Pakistan Security Fum:s.

(U) RESPONSE 1.2: Concur Yoith comment. This recommendation should be:
revised by replacing the phrase "devote adequate resources for accoumabllity and
control and'' with !he phrase "include in the Letters of Offer Dild AcceptMce
chtu"ges for the costs associated with accountability and control and use these
funds to pay for !he nnicles and services necessary to ... " The new
rccommendlltion will read:

       We recontmcnd th at the Defense Security Cooperati on Agency in
       coordination with the .S. Em bassy lsla.rnabad and Office of the
       Defense Representative Pakistan identity and inc Jude in the Leiters
       of OtTer and Acceptilllce charges for !he costs associated with
       accountability and conirol and use these funds to pay for the an ic-les
       and services necessary to provide security for delivery, storage, and
       distribwion of urgently needed equipment to the Pakistan Security
       Forces.
(U) RECOMMENDATION J.l: Were ·ommend that Lhl' SecretrJJy of Deferue
di rec t the eswblishment of a r•rogram Office with the rcspo n~ib ility to ov1.m;ee the
DoD programs in Pakistan to ensure that these programj ate meeting the U.S.
national security goals. We f\JJ'lher recommend that this office work "·ith a similar
office for Afghanistan to ensure thai. the U.S. Investment in the region i working
as a un ity of effort to achieve common overall goals.




                                  1!'18Fifl81i.!PI'Ffollts                            7




                                       - ! 03 -
                                    8ECIU:lT
                                    RC(:f~P.l'




                                 88Nft.ttl'!fi'fliltll


(U) RECOMMENDATION J.2: We recommend that the Undtr Secretary of
Defense for Policy a.~ the Chair of the Defense Consultative Group:

(U) RECOMMEND ATTON J.2.a: Meet on a regular basis nnd conduct
meetings at least twice per year; and m re if required.

(lf) RESPONSE J.l,!l: Partially ~:oncur. USD(P) is committed to a kmg-term
relationship between the U.S. and Pakistan based upon mutuallrU5t and common
interests. Although the Defense Consultati ve Group (DCG) is one vebiclc- to build
upon this relationship, it is only ne of many ongoing efforts to maintain and grow
relations behvcen the U.S. and Pakistan. While limited time and resources, as well
a.s gel1politicol circumstances both in the U.S. nnd in Pakistan, constrain the
frequency with which these meetings cnn occur, LISD(P) is committed to r..-gular
meetings of the D G.
(U) RECOMMENDATION J.l.b: ( ll ) Discuss the Coalition Support Fund as
an agenda item at each meeting.
(U) RESPONSE J.l.b: l'1U1ially concur. The agenda for a g iven DCG should be
dictated by the topics lhut urc most rdcvnnt to DoD and most uppropriatc for
resolution via the USD(P). When Coalition Support Funds is a topic warranting
DCG discussion. DoD concurs that it should be placed on the agenda. Bui to
pl ace it on the agenda as a requirement is n tan appropriate presumption for the
DCG .




                                e8PiPIBBPiif'l! tE                                  8




                                   - 104 -
                                  SECREl'
                                            5ECIU31'


                                          88UFIBEP4 I 114L
                         Unclassified whsn ~epnra led from classified aNachmenl
                             UN ITEl> STATES (.;ENTR,\L <.:OMMANH
                                    FfiCE OF THE CIIIEF OF ST1\FF
                                    I ll ~ . OLTTH llOUN D1\RY BOUU ;V/IIW
                             lVIAC I\11.1. AIR FORl'l ' l11\SE. FLORIDA Dr.2 1-5 1UI


                                                                                       27 February 200~

TO: DEPARTMENT OF DEFbNSE. INSPECTOR GENERAL

SUBJECT: Assessmenr of DoD-Mn.naged Programs in Support of tlu.• Government of
            Pak.istllil Project No. 02008-DOOOIG-0184.000. Repon dntc January 30.
            2009 (U)

I. lU) Thank y~Ju for the opportunity to respond to the n~c ommendations presented in Lbe
DoDIG draft report.

2. (U) Attached   i~   the CENTCOM consolidated response               L1 the recommendations.

3. (U) The Point of Contac t i s - S C E N T C O M Inspector
Generai , !'O'd'J:'~ 1 @!W .




                                              u~
                                                Sfrc 1v. ~ W.HOOD
                                                                          v-£2__
                                                         jor Gen eral. U.S. 1\m1 y

Attat: hment:
TAB A: CENTCOM Consolil.I:Hed Response




                                         89UFIB&••;t;t.k
                        UnclaSSifleo when separated lr<Yn c:assllled auachment




                                           - I 05 -
                                          gECIUBT
                                                                       SECitET




                                                                     @8.il WE?YR:Izi.

                          DOUlt, DRAFI R£PORT Ll.\IED 30 ,J:tuolll!· .:!UU9 tl•l
                             UOOIG f'rctject ,-;a. J>20 ~ -J>IJIJOJ(.;.o184 . 000 (lll

                                       · ' A'!t. '\f" \ \ IO H ' I   ul DnD-f\fau .. gt:'"cl P • ••&•-;•nn             i11
                                     S utt(Jtl l t u ft r. .. f'; u\ l' I 'II IUf<lll flfP;l L:h l dll               en,..
                                                        CEl\"TC0:\1              O:\I~IE:"T
                                                     10 HU. fL' .\.L IU.POJO cL

R£(.01\L,l.E...'\"DATION 1. ID, pngot .l6l
(1 1 R .-n!IHIII       d '""' rhr C nn n rr.tu<lct I 'I C'rc lf J,t l Cummand 1\'•,,rk ms i11 t n oJ!<lirli.' ll • 11 """ •h..-
D.-plllhllt""llt o f Srn r ~
          l \U) Em1b lj ~b Im.:m:l!lo1131 !J.llJr.vy Ed11C'l on Trn.1W!1g aU..."<:: au n • d• ·ng li:J.;: fi ~~~ ~
         ~'<'ru ber-.,re tbt eLo>CUuoo y.-ar to impr.:n·.: piOllf'MD ~ q11om pL'III.IU.Ilg. tmdent o'-"lecn n
          ~Jod , ·.: n wg i'lppb<:3tion ;wd ~· ·             p ro ,..•.,uJ;. ~nd lo g1Hic;; l 1\!Tang .. mem s.
          2. ( Ul Pncouttzc lul~mn ll cnn l NhlstllfV btu tiiiOlllm.tnull! l'fJons en n ud nud •~ru('t
         l\'\'cl .:> ffi<" "f~ n1 Ctotd by th e I J Vi\!U' >1.1"1 ~O.'ii•~U 0 th p C•j!!t'nOl 3Ud I C~<l ~ tltt pn II'\'
         tnr nil •c·"''"'' n t hur-m"n'"''~~ I Vlilctary l.:".:! u ~ M 1nu fr 11rn "11 '" p,.~-;,.,
          1 t{ j) Ccr. , ... •dr l lllClC(It .. ) ll T.-drn 'i'htl!loll   ,Ju.-uy E.cln.t. •1U n U T uu Htll ~ f•uni HI ~ rn, Pnht .. ff'\ JI
          f U h-\ rl•1EC" fhr' ll lll lt.. , f)"a l \l•llllhhU) h t'7l t"fi l, II         IJH"' Jl lt , ~ 1 c1 111
          ~  (U) C ut.l-.d..:t t r.q u to.tm!:' . llu uu,gh tlu 3}Jptup11alt' ch .l tU!d.o. . th..tl ( '·"'J:''C" ~l lfl.to.>ll .: .. ,,ud
          1\ppropnlll<" l.nr~'lrtcmal :-111u~· Educ~u o n Trii.irun~ f nodt fot ~ ~·r1. r~ rn lher that f.:>r
          dtU! year IJl o rd ~ to impr<J\'i! <he pl=n~ moe,;; ior lauau. •• rul ]l.iJhtO\fV E dH~:th n
          T rn mru i!: m P .lk1'>lllll.

Cfr;] (,'01\l Rl,!>PONS£: C                            J COM con ur • IVlth                 r~ ·: .:> amucnd nllcm           1J    J 4 .-.bon
p,.1,,1..-r1 ," th" DOOIC • fl'"l'""

RECO'I\.IJ\~'DATIO~'! (HI                                J'n • .- 11)
~- 000[0 recommetttl~ th;u tb~                             orumancl~l .       ll · Centra l C o rrunand
              1.. 1 ( onSJdi't <'<'l:llblishm,q tb<' Offic., f Dei-m'><' R                                • ~ ~n t:;r ,-y•   Pabt tM p~r~r.>tU>e- l   t t:> l lt
          IM~.glh.s
                  "' a mtummm of I~ mt>uth~ to facm 'i<:'lld r~ IM1<msh.tp " \nrh rhe Pilir,tanis.
            ( Lf Du     t!utr biof,;, r~ c!.:plo'"lll~nt Off, c.- ot D [ w:;c Kep.~e ; ;:-u t .1 bY~ p,,k,..,litn
          !XfWWld be tr11111 d tn I!J C"- P krstnn ClL~tt~~n'> And !J.~ \'c the: r~llil~d ~k.db o p::rtorm the
          fW\       on.
          r (l l) E,l.>hb . lt ;muf'litial n ~ m>HBJ.'l!.ll:' l illlt f~>t OffH·,.." D<-fr!bc R..J n'"'~lllil l n r
          Pnl. 1-.1~tu Jl ~""'l'' u~J!" J \<\lJd , ,. l .i~l.:~t.J \\.itfl n tn;..o\~ tu~ h.'' 1e '"~ n llJ 1 Jll f'"h.IH ig TT:
          !'iwJwg aJld lo::UliLUc. ..U I , , , ro Pd.. l !ill fLtllh....r . vei\L>Une-liJ<tD!! . rafTrJ ~' OOl cc ~·f
          Df'fffi~<' Repr<' ~~ntalt"' Pdi.:.J• Iilli ru ptO!"T3J' 0""'-"'•f!hl                     .o-s.ceutJoo po...,tiotn ~~ nJd r!O
          tb ou~ ~ pt r m fll"-tl.ll!~ln<'nt couJ£f' dt"il~ll~d fo1 I ~ .l :.r.15J1Wt o r
               (U) A3 0 w~ pnonry ( nduct IJ tl'OC')J · I · to >..It ftllllh ~" ·~i Ofu,;c lL>d:-.ac
          ltcprn~ a t t \'t Palu~lnn pcr,otu.tcl l'l1Jd MIJil~t ~~ n~.:c,~cry lo Y('T>fv tllat the c-IgiiOJ~lttoa
          1 •nuhonzc:d ufliu.eur P<.l <!St.ll" l ill tb( )'JJ p~ I grn rl.:-. w• lh •he n~cdcd C"''!)~rt<"n.::c M J
          ..J...Il .... l~

CEJ'-"TC'0:\1 JU:SPO:"SE : CE1TCOM coocuJ                                        \\U.ll    th.- foll Wm!! comu1~1U


                                                                 c tt!d HU:L' llo\!b




                                                                        - I 06 •
                                                                     SECRET
                                               SI!CIU!'f




                                            ftl'OENTI.~L


 I) \\'\' ag.re With re-c mnt\'ndilh n 2a ilUO\'e briJe,·m~ tht' length of tours ~ho1~cl be mcrea~ed lo
, ruuuo uru of I ~ month, P1r ·dt"plo~·rurnt trauuu aud d:om 'tltz-lhOll willu ur r u hly two
add1t1 nalm lilhs fthe rotlf n~ \\'~U ~ teqlllrt'meur for ~pf'tlfic on- th~ ·JOb liilUUJJgdtutn~
a -o1·er . In ~,,illlg 1 u l ~ogrh to 15 u utlll. 1nll l->'1 1tde n longtr ootlcltime fot
r~l 11oo !up to funcuon ,md grow, pro\ td mot~ \I bili ~ .· redu stg th~ mtmber f
rel nuon lup; that bav to br rebuilt and wtll pro1Jdt' berrer c nrimuty W1tlun t'JCIJ illl lgJtmenl
2l RE rl"coruuJroi,Mn !d ~:~bove. dunn~ ht- CENTCm1 ··mt Mrmruug Doi'IH rn (JMD
ronfert'nc€'. ODR-Ppre~ nt~d 11 ret ue~t ro add bt!leis to rhe · J~1D Tit rrtu~h rtu pro't> :.,
   DR-P .ut.l\?ed 1h~r urem ballet and fo mrlrhev da uot hnr nffictent p-:1onnel J d
111 ~ lll' ca:.>?) per onnt> l wttho t ihe p1ope1 e,;pmenr •lnd ~ kill ~col In th~ end DR·P
r?q1H'5t ~d rm addmon;~ l ~I p~r un~l and made change· u 2r.1de ex •rren·e. md ~lull
~.m Tim wwut cunently 111 t3rtiug at CENTC O~t nor t> r to makt' prop~
pw_1ec 1 ns kr .1ear fu tnr u~ ·d· CENTC'OM 1couWJ tes (•) ,,.. tk wttll ODP.-P m
an:~lvzlll~ billets l'munng ODR-P is staffed to m~e1 1h grcm·u p, rut 1 11

 RH )Pit:'\ D.-\ TION l (1.3 pag~ 62
(l'l DODJG rr-oHune ud~ that the CouunJ1odrr, US rul I Comruand
a (l~ E!>l b!Jsh All opmttcnal ptogri\m manage1 for h· D D pro llli m P3kt\tlln u ludu~g the
Cowtiou Snppon Fund IMnh Lv P11ki~t, u. Titis prClgs ru ut.1na11et ~h uld lun·e the oret 11
r~r.pcn ·1bilirv 1 onr~~ h~ m3n.1gt'ment and opmuoo 1 eusuH~ rh.nr th~ goali of thr Urur~d
Stntt» nnd DoD .1re btttl ,tdllel'~d Thi> progrnm ITL~11ager ~ h uld ah ~ rt<>p.m>Iblr f, r
rlewlopmg rh polt m~ that wdJ ~ 1\l wtth banng ~coo me-nt operalloo of rbt pr grnn1
deY lop , badgt for fnhiie ~~ptcted r · u nhnrs~nt'"llt5 I P~kt vM n ~ wt>LI ti~ . rra ng .1 fimdJO@
pliUl f r ~ll he- D Dprograms 111 p,,kiStan md ~1loUJ ~ that tht> Oftire- ofDe-ft'mt' Reprt' ~c-otilhW
Pakt~rnu Ita~ euough p. oune-lr nu1 1b1>tntr ~ 1 nu~ron nd tkl! 1 b ~ M \\dl uam<>d and
\lpdillt' l ou all program maner;

CENTC'O~J     RESPO"'SE: CENTCOM concur!. With r~ 11mto:onda11on 3a nbo\·e. CENTCOM
reronw~nd·    ·· umv As          e ffice (SA ) prl'lndr cn·l!-r tgh! { alJtJon ~npp n FUllrl
                            1 rQJ.l
mtL n ·,. M bil~td uwd"'l ' CEl'..'T · ~11 cum·a ~· prrp:mn~ u · It P kt Iilli ro ~t1 b"h th
model and pro -se the WJY ahead to redure JliiJil'fi\'ork reqtmetni'nt<i , wbtll' wmnn~            t!Pt   U :,
goal mJ obJW!W') are        let.   Tilt progtam m:111ager. r~.uimg io the Offi e of o~ ent,e
Reptl">tttta!Jve rn P~k•~l au ~ •1ll en ure ~eat~   ~tnt. t1 n~l   :1\\'rutut'> .. of on~outg P~lmt3tt.\1Jlttnry
Opent1o•     !Jl auJ lloag tbt' we-.t~rn bcrder




                                           C8~1AB£p;ft.Jd:




                                                - I07 •
                                              5il!lCfUAT
Appendix F. Report Distribution (U)

 (U) Department of State
Secretary of State
U.S. Ambassador to Pakistan*
Assistant Secretary of State for Political-Military Affairs
Inspector General Department of State


(U) Office of the Secretary of Defense
Secretary of Defense*
Deputy Secretary of Defense*
Chairman, Joint Chiefs of StafP
Under Secretary of Defense for Acquisition, Technology and Logistics
Under Secretary of Defense (Comptrollcr)/Chid Financial Officer*
   Deputy Chief Financial Officer
   Dep uty omptroller (Program/B udget)
Under Secretary of Defense for Policy*
Under Secretary of Defense for Intelligence
Vice Chairm an of the Joint Chiefs ofStaiT*
Ass istant Secretary of Defense (Legis lative Affa irs)
Assistant Se~.:retary f Defcnse (Public Affairs)
Director, Pre gram Analysis and Evaluation
Director. Defense Procure ment and Acquisition Poli cy
Director, Joint Staff
   Director, Opera tions (.J-J)*
   Director, Strategic Plans and Policy (.1-5 )*
   Director, Force Structure, Resources, and Assessment (.1-8)*


(U) Department of the Army
Auditor General. Department of the Army
inspector General f the A my

(U) Department of the Navy
Auditor G~ncra l , Department of the Navy
Nava l inspector Genera l


(U) Department of the Air Force
Auditor General, Departmem of the Air Force
Inspector General of the Air Forl:c
                                          - I 08 -
                                        SECRET
                                            SECRET



(U) Combatant Commands
Comm" ndcr, U.S . Central Command*
Inspector GeneraL U.S. Central Command *


(U) f0ther Non-Defense Federal Organization
United States Comptroller General
Office of Management and Budget


(U) Congressional Committees and Subcommittees,
Chaii rman and Ranking Minority Member
Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental A ftairs
House Committel: on Appropriations
   Houst: Subcommi ttee on Defense. Committee on Appropriations
House C: nuJJittcc on Anncd Services
House Com mittee on Oversight and Government Refom1
   House Subcommittee on Government Management, Organization, and Procurement
   House Subcommi ttee on Na tiona l Secmit y and Foreign Affai rs
House Committee on International Relations
House Committe· on Homeland Security

•   Rc~ ip i.:n t s   of the draft report




                                             - I 09 -
                                            SECRE'f
 SECRET




 - I I0 -
SI!:Cftt!T
     If you sus pee t Fraud, Waste, Ab use, or M isma nagement in th Dep rt m ent of 0 fens , please contact .

OEPARTMEriT   or DEFH• · C
                                           To repurt fraud, waste, mismanagement, and abuae of iiilthori;-;.
                                           Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                           Phone: 800A24.9098        e-mail: hotline@dodig.mil       www.dodigmil/hotline


                                                       SECRET
